<html>
<title> - FISCAL YEAR 2007 BUDGET</title>
<body><pre>[Senate Hearing 109-396]
[From the U.S. Government Printing Office]



                                                 S. Hrg. 109-396, Pt. 1

                        FISCAL YEAR 2007 BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

 OVERSIGHT HEARING ON THE PRESIDENT'S FISCAL YEAR 2007 BUDGET REQUEST 
                          FOR INDIAN PROGRAMS

                               __________

                           FEBRUARY 14, 2006
                             WASHINGTON, DC

                               __________

                                 PART 1

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
26-112 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                      COMMITTEE ON INDIAN AFFAIRS

                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

                 Jeanne Bumpus, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Blunt, Paula, general deputy assistant secretary, Public and 
      Indian Housing, Office of Native American Programs, 
      Department of Housing and Urban Development................    11
    Boyd, Roger, deputy assistant secretary, Public and Indian 
      Housing, Office of Native American Programs................    11
    Cabrera, Orlando, assistant secretary, Office of Public and 
      Indian Housing, Department of Housing and Urban Development    11
    Carothers, Cathie, acting director, Office of Indian 
      Education..................................................     9
    Cason, James, associate deputy secretary, Department of the 
      Interior...................................................     6
    Corwin, Thomas, director of division of elementary and 
      secondary vocational analysis, Department of Education.....     9
    Dorgan, Hon. Byron L., U.S. Senator from North Dakota, vice 
      chairman, Committee on Indian Affairs......................     2
    Edwards, Gary, chief executive officer, National Native 
      American Law Enforcement Association.......................    35
    Garcia, Joseph A., president, National Congress of Amrican 
      Indians....................................................    26
    Gordon, Gary, executive director, National American Indian 
      Housing Council............................................    33
    Grim, Charles W., director, IHS, Department of Health and 
      Human Services.............................................     7
    Hartz, Gary, director, Office of Environmental Health and 
      Engineering, Department of Health and Human Services.......     7
    Johnson, Hon. Tim, U.S. Senator from South Dakota............     3
    Kitcheyan, Kathleen, member, Board of Directors, National 
      Indian Health Board, chairwoman, San Carlos Apache Tribal 
      Council....................................................    29
    Marburger, Darla, deputy assistant secretary for policy, 
      Office of Elementary and Secondary Education, Department of 
      Education..................................................     9
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    McSwain, Robert G., deputy director, IHS.....................     7
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............     4
    Parish, Cheryl, secretary and board member, National American 
      Indian Housing Council.....................................    33
    Schofield, Regina, assistant attorney general, Office of 
      Justice Programs, Department of Justice....................    13
    Swimmer, Ross, special trustee for American Indians..........     6
    Thomas, Hon. Craig, U.S. Senator from Wyoming................     3
    Vanderwagen, Craig, acting chief medical officer, IHS........     7
    Wilson, Ryan, president, National Indian Education 
      Association................................................    31

                                Appendix

Prepared statements:
    Cabrera, Orlando (with attachment)...........................    51
    Cason, James (with attachment)...............................    60
    Edwards, Gary................................................    89
    Garcia, Joseph A.............................................    95
    Gipp, David M., president, United Tribes Technical College...   109
    Grim, Charles W. (with attachment)...........................    45
    Hall, Tex, United Tribes Technical College, board president, 
      chairman, Mandan, Hidatasa, Arikara Nation.................   109
    Jimmie, Andrew, chairman, Alaska Native Health Board.........   114
    Kitcheyan, Kathleen..........................................   124
    MacDonald-Lone Tree, Hope, delegate, Navajo Nation Council, 
      chairperson, Public Safety Commission, Navajo Nation 
      Council....................................................   134
    Marburger, Darla (with attachment)...........................   141
    National Indian Head Start Directors Association.............    43
    National Association of Tribal Historic Preservation Officers   157
    Parish, Cheryl...............................................   161
    Roanhorse, Jr., Anslem, MSW, executive director, Navajo 
      Division of Health, on behalf of Joe Shirley, Jr., 
      president, Navajo Nation...................................   183
    Schofield, Regina (with attachments).........................   167
    Swimmer, Ross (with attachment)..............................    60
    Thomas, Virginia, President, National Johnson-O'Malley 
      Association Board..........................................   188
    Wilson, Ryan (with attachment)...............................   193
Additional material submitted for the record:
    Letter to President George W. Bush from Daniel R. Hawkins, 
      Jr., vice president, Federal, State, and Public Affairs, 
      National Association of Community Health Centers, Inc......   222

 
                        FISCAL YEAR 2007 BUDGET

                              ----------                              


                       TUESDAY, FEBRUARY 14, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m. in room 
106 Dirksen Senate Office Building, Hon. John McCain (chairman 
of the committee) presiding.
    Present: Senators McCain, Akaka, Dorgan, Johnson, 
Murkowski, and Thomas.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good afternoon. Let me begin by applauding 
the Administration for eliminating earmarks in the President's 
budget and commending efforts to reduce ineffective or 
inefficient spending. But while we must all be concerned for 
our fiscal future and must make tough choices, we cannot renege 
on the Federal Government's trust and moral obligations to 
Indians.
    In evaluating the proposed budget against this backdrop, I 
am deeply concerned that the funding for the earmarks was 
simply eliminated, rather than redirected to continue 
supporting the Indian programs or services which already 
experience severe underfunding.
    I am also concerned that programs deemed non-essential or 
duplicative by the Administrative were eliminated in their 
entirety without consulting with Indian tribes or this 
committee, without a realistic assessment of existing or 
available alternative services and without evaluation of the 
impacts upon the Indian recipients, especially children.
    For example, I am troubled that even though the latest 
census stat indicates that a majority of Indians live in urban 
areas, the funding for urban Indian health programs, which have 
been in existence for over 30 years, was eliminated. The 
Administration has indicated that other services may be 
available, primarily from the community health centers.
    We all know that community health centers are badly 
underfunded, but no information, data or statistics were 
provided to support such a drastic change in policy. Without 
such information, we cannot begin to determine whether CHC's 
have the capacity to treat a whole new patient population with 
culturally specific needs, much less determine whether shifting 
Indian patients from Indian clinics will meet the long-term 
health requirements of this population.
    As a fiscal conservative, I worked many years to make our 
government more effective and less wasteful in determining 
where to make cuts in a vast array of sometimes gilded Federal 
programs. However, we must remain mindful of our obligation to 
Native Americans who remain the very poorest in our country. We 
must carefully review changes in programs and policies to 
ensure that we endeavor to meet our responsibilities.
    I think my friend, Senator Dorgan, would agree with me that 
sometimes we see these budgets come over with cuts that they 
know are going to be restored by the Congress. It is a game as 
old as there is as long as we have been doing business. But I 
think that some of these cuts clearly send out the wrong signal 
to Indian country as to what our belief and the fulfillment of 
our obligation to Native Americans is all about.
    Senator Dorgan.

  STATEMENT OF HON. BYRON L. DORGAN, U.S. SENATOR FROM NORTH 
       DAKOTA, VICE CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me thank all of the witnesses who are coming today 
before the committee.
    We have a responsibility to provide our advice to the 
Budget committee on budget issues. I would share the chairman's 
observation about some of these matters. I think sometimes we 
have recommendations to zero out funding with the full 
expectation that Congress would not allow that with certain 
programs, and Congress itself will restore the funding.
    I do want to point out that I think that we have in this 
country some people locked in a cycle of poverty, most 
particularly on Indian reservations with a full-scale crisis in 
health care, in education, in housing, with unmet needs that 
are very substantial. The budget issues reflects a set of 
priorities. It answers the question, what are the priorities 
for this country. I have very substantial disagreements with a 
number of the priorities in the President's budget.
    From previous discussions we have had, Mr. Chairman, on 
this committee, I know that about 40 percent of the health care 
needs are unmet, roughly 40 percent of the health care needs of 
Native Americans are unmet needs. It is a trust responsibility 
we have for Native Americans and yet we sit here, the witnesses 
sit there, the Administration is down the street a ways, and 
none of us should be or will be content with 40 percent of the 
health care needs being unmet. It is a crisis.
    How many children today are not going to get health care 
when they need it? And we know they are not going to get health 
care. So we have a responsibility to do something about this, 
this committee, the Budget Committee, the Administration. The 
budget is simply a starting point. This opportunity to have a 
full discussion about that is a unique and good opportunity.
    I look forward to hearing the witnesses, Mr. Chairman. I 
did want to say there is a pent-up passion of mine for us to 
get serious about the third world conditions that exist in some 
parts of our country, notably Indian reservations, where a lot 
of people who need health care are not getting it, where kids 
are going to schools that are in disrepair, and where 
opportunities for housing are not the same as in other parts of 
the country. We can do something about that if we have the 
will. There is a way to do it, and I hope that at the end of 
this process this year, we will make some progress on all of 
those issues.
    The Chairman. Senator Thomas.

   STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    I just simply want to agree with what both of you have 
said. I think it is very important for us to take a look at 
these budgets. Obviously, we have some times of great need. I 
think there is special need often in Indian country and we need 
to take a look at that.
    On the other hand, we have the spending of the money. So it 
is a real challenge, and thank you for starting us on that road 
today.
    The Chairman. Senator Johnson.

 STATEMENT OF HON. TIM JOHNSON, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman, and thank you to 
the members of the panel.
    I come to this hearing with a little bit of a different 
perspective in that besides this seat on the Committee on 
Indian Affairs, I also serve on the Budget Committee and the 
Appropriations Committee. Budgets are fascinating documents 
because it is when you get to the budget document that rhetoric 
and reality begin to part ways, because it is the budget that 
clarifies where priorities, where values truly lie. We have 
never had any shortage of rhetoric directed toward improving 
the lot of Native Americans, but the budget too many times has 
fallen far short of reflecting what that rhetoric would 
suggest.
    I am concerned about underfunding in health care and 
education, among others. One of the things that I think we need 
to do a much better job of is directing resources in a manner 
which would spawn a much stronger private sector economy in 
Indian country, because it is apparent to me after my years in 
the Congress in both the House and the Senate that we simply 
cannot rely year after year on the Federal Government to fully 
live up to its treaty and trust responsibilities, because it 
has fallen woefully short every year that I can think of. We 
need to find ways to diminish that dependency that we have had 
too much of, but that does not come free. That involves 
investment in education and infrastructure and other needs in 
Indian country as well.
    While we are at it, I think it will continue to be 
important that this Congress maintains a consultative 
respectful relationship with the tribes involved. This should 
not be a top-down decisionmaking process. This needs to be one 
that is consultative and reflective of the sovereignty and the 
government-to-government relationship which does indeed exist 
or should exist between our tribes and the Federal Government.
    So I am grateful for the Chairman holding this hearing. I 
look forward to a much closer analysis of the budget that is 
being proposed to us. It is true that we can make changes, but 
it is also true that the pool of discretionary domestic funding 
that is available continues to shrink year after year after 
year, forcing decisions that should not have to be made.
    So thank you, Mr. Chairman, for conducting this hearing.
    The Chairman. Thank you very much.
    Senator Murkowski.

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I do appreciate 
the hearing this afternoon.
    To all of you gathered here this afternoon, thank you for 
joining us.
    I do have a full statement that I want to submit to the 
record, Mr. Chairman.
    The Chairman. Without objection.
    Senator Murkowski. Just a few comments before we move to 
the panel. I want to take 1 minute to acknowledge Ryan Wilson, 
who is the president of the National Indian Education 
Association. They are having their annual legislative meeting 
here in Washington. I know that several of our colleagues are 
going to be speaking at the meeting tomorrow morning, as I 
will.
    Yesterday, Ryan delivered a State of Indian Education 
address. One of his key messages was that it is crucial for 
this committee to travel to Indian country so that we can hear 
from those who work on the frontlines of Indian education, so 
that we can witness the conditions of the facilities.
    But perhaps more importantly, that we can interact with 
Native young people and let them know that somebody cares about 
their future, that somebody cares about their education. This 
is an important idea, and I would hope that the committee would 
be able to accommodate it.
    I am still looking forward to an opportunity to have 
Secretary Spellings travel to the State of Alaska as former 
Secretary Paige had an opportunity to do a couple of years ago, 
where he was able to witness not only some of the creativity of 
our teachers and administrators in the rural areas, but 
understand some of the challenges in implementing Federal 
programs such as No Child Left Behind in very isolated rural 
places. So I will again extend the invitation through you, Ms. 
Marburger, to Secretary Spellings to again see for herself 
first-hand.
    I want to take a few minutes to say a few words about the 
proposed budget. I want to acknowledge the Bureau of Indian 
Affairs' [BIA] efforts to fund the contract support costs. The 
Indian Health Service [IHS] can be proud of the fact that it 
has obtained funding to keep up with the population changes and 
medical inflation. I also note a flight increase in the funds 
proposed for rural sanitation.
    We may quarrel about the sufficiency of these increases. We 
still do not have the 10 percent annual increase in IHS 
clinical services that I have been fighting for since I came to 
the Senate, nor is the Federal Government spending what it 
should for the care of Indians. It is a recognition that we 
have to do what we can when it comes to that care.
    I have to hand it to you, Dr. Grim, and to Mr. Cason, for 
working the system to make the best that you can of a tough 
budget. But there are some provisions that I do remain 
concerned about. The IHS' facility construction program, what 
was supposed to be a 1-year pause in the program is emerging to 
be a 2-year freeze. I am concerned. I want to know what the 
effect of these cuts will be on the construction of the new in-
patient facilities at Barrow and Nome. These are number one and 
two on the priority list. That is something that we are looking 
at with great concern.
    Also, the proposal to discontinue funding for urban Indian 
health programs is also disconcerting. We do not necessarily 
have the urban programs in Alaska, but the urban clinics in the 
western United States serve numerous Alaska Natives who have 
relocated to other parts of the country, looking for employment 
and a better life. So it is troubling when one considers that 
some of the clients served by these urban clinics were 
encouraged to leave their reservations in the 1950's as part of 
this policy of relocating Indians out of Indian country.
    I do have some concerns, again I would mention the Indian 
education, the Johnson O'Malley program, which has proved to be 
a vital cultural link for Native children receiving education 
in the public school system. It is proposed for elimination. 
The Office of Indian Education, you have to wonder what 
specifically is happening there.
    We had very able leadership under Assistant Deputy 
Secretary Vasquez. The office had a clear reporting 
relationship to Secretary Paige. It is now being headed by an 
acting director, as Ms. Vasquez has left, but it is kind of 
buried in there in the Office of Elementary and Secondary 
Education. So we look to work with you to better understand how 
these can all be brought together.
    There is lots to talk about today, Mr. Chairman. Of all the 
hearings that this committee conducts in this year, this one is 
probably the most important to Indian country. So I look 
forward to hearing from those who have agreed to be with us 
this afternoon, and to share some of the concerns that we have 
as we talk about our obligations.
    Thank you.
    [Prepared statement of Senator Murkowski appears in 
appendix.]
    The Chairman. Our panel of witnesses, some we have had the 
opportunity of visiting with on numerous occasions, and there 
are others who are new here today.
    James Cason, who has been here on a number of occasions, is 
the associate deputy secretary of the Department of the 
Interior. He is accompanied by Ross Swimmer, an old friend who 
is the special trustee for American Indians. Charles W. Grim is 
the director of the IHS, the Department of Health and Human 
Services. He is accompanied by Robert G. McSwain, the deputy 
director of the IHS; Craig Vanderwagen, who is the acting chief 
medical officer of the IHS; and Gary Hartz, who is director of 
the Office of Environmental Health and Engineering, Department 
of Health and Human Services.
    Darla Marburger is deputy assistant secretary for policy, 
Office of Elementary and Secondary Education. She is 
accompanied by Cathie Carothers, who is the acting director of 
the Office of Indian Education; and Tom Corwin, who is the 
director of the Division of Elementary and Secondary Vocational 
Analysis in the Department of Education.
    Orlando Cabrera is the assistant secretary, Office of 
Public and Indian Housing, Department of Housing and Urban 
Development. He is accompanied by Roger Boyd, who is the deputy 
assistant secretary of Public and Indian Housing, Office of 
Native American Programs; and Paula Blunt, who is the general 
deputy assistant secretary, Public and Indian Housing, Office 
of Native American Programs at the Department of Housing and 
Urban Development.
    Finally, but not least, Regina Schofield is the assistant 
attorney general, Office of Justice Programs at the Department 
of Justice.
    Welcome. We will begin with you, Mr. Cason.

     STATEMENT OF JAMES CASON, ASSOCIATE DEPUTY SECRETARY, 
   DEPARTMENT OF THE INTERIOR, ACCOMPANIED BY ROSS SWIMMER, 
                 SPECIAL TRUSTEE FOR AMERICAN 
                            INDIANS

    Mr. Cason. Thank you, Mr. Chairman and members of the 
committee.
    I am here representing the Department of the Interior, 
along with Ross Swimmer, who is the Special Trustee for 
American Indians. Ross and I have concluded that we are not 
going to offer an opening statement beyond just introduction, 
to afford the committee the most time to ask us questions and 
respond to your interests.
    Thank you.
    [Prepared statement of Mr. Cason appears in appendix.]
    The Chairman. Maybe a general comment on the budget 
submission, Mr. Cason, might be appropriate, if you had just a 
brief comment.
    Mr. Cason. Okay. Just briefly for both OST and the 
Department, the Indian Affairs budget is roughly even. We are 
about $70 million short of the 2006 enacted amount. Of that 
amount, most of that falls into the category of school 
construction, $47 million is the equivalent of a school that is 
not on the replacement list, in order to make our budget 
balance.
    There were a lot of additions and deletions in our budget 
in Indian Affairs. What we tried to do is take a look at the 
entirety of the Indian Affairs budget, identify the things that 
we believe to be core systems in our budget or core 
requirements in our budget, and then identify all the other 
secondary and tertiary pieces of the budget and look to 
maintain the integrity of all the core systems, use secondary 
and tertiary programs to make new investment in core systems, 
or ensure that no reduction occurred in them, and then use as 
tradeoffs secondary and tertiary programs.
    Most of those ended up being supplemental activities for 
core systems, or very small bit programs that did not have very 
much of an investment.
    We have a big commitment to Indian education embodied in 
our budget. That is very important to us, and we are spending a 
lot of time and effort on that program area. As the committee 
knows, we are spending a lot of time on trust and our trust 
responsibilities. Those are the two principal drivers of the 
Indian Affairs budget.
    Ross, did you want to make any comment on yours?
    Mr. Swimmer. Just briefly. Our budget is basically the 
same, with a small reduction in the operating side of it. We 
have asked for an increase on behalf of the pass-through that 
we give to the BIA for the Indian Land Consolidation Program of 
approximately $21 million to increase the amount of funding for 
that program to acquire the very small fractional interest in 
Indian country, and make the land much more useful, and 
decrease the cost of having to deal with these very small 
fractional interests.
    We have what I believe is the funding to proceed with the 
development of the fiduciary trust model, which is in essence a 
fiduciary trust operation within the Department of the Interior 
to administer the trust. We continue to administer that model, 
to implement the model, mainly through conversion of systems, 
cleanup of records, and reconciliation efforts. Our budget is 
also of course committed to the historical accounting through 
the Office of Historical Trust Accounting.
    Of the total of our budget of approximately $244 million, 
the amount that the Special Trustee actually controls for its 
budget is about $114 million. The rest of it is given out to 
other offices or bureaus within the Department of the Interior 
to do other trust activities such as the Oken Ota.
    Thank you.
    The Chairman. Thank you.
    Dr. Grim, welcome back.

  STATEMENT OF CHARLES W. GRIM, DIRECTOR, IHS, DEPARTMENT OF 
 HEALTH AND HUMAN SERVICES, ACCOMPANIED BY ROBERT G. McSWAIN, 
   DEPUTY DIRECTOR; CRAIG VANDERWAGEN, ACTING CHIEF MEDICAL 
  OFFICER; AND GARY HARTZ, DIRECTOR, OFFICE OF ENVIRONMENTAL 
                     HEALTH AND ENGINEERING

    Mr. Grim. Thank you, Mr. Chairman and members. I appreciate 
your time today.
    I am pleased to have the opportunity to present the 
President's fiscal year 2007 budget request for the IHS. I 
would like to summarize my written statement and ask that it be 
entered into the record.
    The Chairman. Without objection.
    Mr. Grim. First, I want to be up front with you. I do not 
think it was missed in any of your opening comments that this 
budget reflected some hard choices that needed to be made about 
where funds can be used most effectively to improve the health 
status of American Indian and Alaska Native people. To meet the 
President's goal of cutting the deficit in half by 2009, some 
well-intentioned programs have been reduced or eliminated in 
the overall budget and IHS was not immune to this.
    This budget reflects our effort to make those difficult 
choices in the wisest way. Overall, however, the request for 
IHS represents the commitment of the Administration to protect 
programs that have proven to be effective.
    While the overall discretionary spending within DHHS is 
proposed to be reduced by 2.1 percent, the request for IHS is a 
4.1 percent increase or $125 million over the fiscal year 2006 
enacted level. The increase is direct funding to the highest 
priorities that were expressed by tribes during the budget 
consultation processes we held. They told us that funding of 
items to maintain the current services is where funding is 
needed first.
    Therefore, this budget includes an increase of $134 million 
to cover pay raises for IHS and tribal staff, for the increased 
costs of delivering health care, and for increased services 
resulting from a growing American Indian and Alaska Native 
population.
    There is also an increase of $32 million included for new 
staffing and operating costs at four new health centers that 
will be opening during fiscal year 2007. There is $11 million 
that is included to cover the increased costs of implementing 
the department's unified financial management system within 
Indian Health Service. I am very pleased that our budget had 
that level of increases.
    On the other hand, the President's budget for the IHS 
contains some difficult choices, as I mentioned earlier, but I 
want to acknowledge that the decisions made are consistent with 
the responsible budget principles that were applied throughout 
the President's budget request.
    There are 141 programs that were proposed for termination 
or reduction in the President's budget, some that were proposed 
because performance had not been satisfactory, and other that 
were proposed because their purposes may have been addressed in 
other agencies.
    The IHS's Urban Indian Health Program was deemed to fall 
into that last category and therefore the budget request is 
that funding for this program be eliminated in fiscal year 
2007. However, I want to add that the department is committed 
to ensuring that culturally sensitive health care services are 
available to American Indian and Alaska Native people who find 
themselves living in those urban areas.
    Another area of hard choices we had to make was in the area 
of construction, as was noted by Senator Murkowski. The budget 
request for IHS health care facilities in 2007 is $17.7 
million, which is a $20 million reduction from the fiscal year 
2006 enacted level. That requested amount will complete one 
facility, the construction of the Phoenix Indian Medical Center 
Southwest Ambulatory Care Center. Construction on that facility 
is scheduled to begin this fiscal year with fiscal year 2006 
appropriated funds.
    While the replacement of aging facilities is an important 
area for expanding access to care, this budget is intended to 
ensure that the basic needs of all Indian Health Service and 
tribal programs throughout the IHS are met. So we chose to 
focus during a tight budget year on offering treatment and not 
building infrastructure.
    In addition, the request for 2007 is consistent within 
HHS's overall facilities management strategy in that no new 
construction is funded in fiscal year 2007.
    In closing, I just want to reiterate that this budget 
supports tribal priorities to maintain current services funding 
levels of our system and the budget will ensure continued 
access to high quality medical and preventive services for our 
population. It reflects the continued Federal commitment to the 
American Indian and Alaska Native people.
    Thank you for your time. I would be pleased to answer any 
questions you might have.
    [Prepared statement of Dr. Grim appears in appendix.]
    The Chairman. Ms. Marburger, welcome.

 STATEMENT OF DARLA MARBURGER, DEPUTY ASSISTANT SECRETARY FOR 
     POLICY, OFFICE OF ELEMENTARY AND SECONDARY EDUCATION, 
   DEPARTMENT OF EDUCATION, ACCOMPANIED BY CATHIE CAROTHERS, 
ACTING DIRECTOR, OFFICE OF INDIAN EDUCATION; AND THOMAS CORWIN, 
        DIRECTOR, DIVISION OF ELEMENTARY AND SECONDARY 
                      VOCATIONAL ANALYSIS

    Ms. Marburger. Thank you, Mr. Chairman and members of the 
committee. On behalf of Secretary Spellings, thank you for the 
opportunity to discuss our fiscal year 2007 budget request for 
the Department of Education programs serving American Indians 
and Alaska Natives.
    My name is Darla Marburger and I am deputy assistant 
secretary in the Office of Elementary and Secondary Education. 
I am joined by my colleagues. After I give you a summary of my 
written remarks, we will be happy to answer any questions that 
you may have.
    The Bush administration is strongly committed to ensuring 
that American Indians and Alaska Natives benefit from national 
education reforms and receive every opportunity to achieve to 
high academic standards. Recent data suggest that our 
investments in Indian education are beginning to pay off.
    We know that more Indian students are pursuing post-
secondary education than ever before. The number of Indian 
students enrolling in colleges and universities is up. American 
Indian and Alaska Native students are scoring higher than they 
have in the past in the national assessment of educational 
progress. They are also scoring higher than other minority 
groups.
    However, significant achievement gaps persist between 
American Indian and Alaska Native student populations and the 
general population. These students continue to be subject to 
significant risk factors that threaten their ability to improve 
their academic achievement and their general well being, and 
continue to need support from the Federal programs that address 
the specific educational needs of the population.
    The 2007 budget request for the Department of Education 
builds on the success of the No Child Left Behind Act and 
supports the President's commitment to provide resources to 
help improve educational opportunities for all students. 
American Indian students will continue to benefit from the 
implementation of the No Child Left Behind Act, as well as new 
initiatives, including the $1.5 billion High School Reform 
Program to improve the quality of secondary education, and the 
President's $380 million American Competitiveness Initiative to 
give students a strong foundation in mathematics and science 
skills needed to compete in the 21st century economy.
    Overall, department programs would under the fiscal year 
2007 budget provide approximately $1 billion in direct support 
specifically for Indians and Alaska Natives. In addition, 
significant funds are provided to Indian students who receive 
services through broader Federal programs such as the ESEA 
Title I grants to local educational agencies and the IDEA State 
grants.
    The BIA would receive over $215 million of Department of 
Education funds to support Indian education programs operated 
by that agency. We work closely with the BIA on program 
implementation issues and to improve the quality of the 
services the agency provides to Indian students.
    The President's request for the department's Indian 
education programs for fiscal year 2007 is $118.7 million. We 
are requesting $95.3 million for Indian Education Formula 
Grants to local education agencies. These grants supplement the 
regular school program, helping Indian children improve their 
academic skills and participate in enrichment programs that 
would otherwise be unavailable to them.
    Our request for special programs for Indian children is 
$19.4 million. Approximately $5.7 million would support an 
estimated 23 demonstration grants to fund school readiness and 
for preschool-age children, and also to prepare secondary 
students to succeed in post-secondary education.
    In addition, the 2007 request would provide $9.2 million to 
support the American Indian Teacher Corps. This program trains 
Indian individuals for teaching positions in schools that have 
a high concentration of Indian students. We have a similar 
program that is aimed at training administrators to serve in 
these same schools.
    We are also requesting $4 million for research evaluation, 
data collection and technical assistance that is related to 
Indian education. This is an area where in the past we have not 
been able to get a lot of said information. The data are very 
important to us. Funds will continue to support data 
collections initiated in earlier years, such as the special 
NAEP program that we have in place that is designed to collect 
data on the educational experiences of American Indian and 
Alaska Native students and the role of Indian culture in their 
education.
    The other purpose of the program is to promote ongoing 
program improvement for Indian education grants to LEA's and 
special programs.
    Our budget request for the first time would provide funding 
of $200 million for formula-based title I school improvement 
grants. These funds would help ensure that States receive 
resources to provide effective improvement support to LEA's and 
schools that have been identified as needing improvement. Under 
this program, the BIA would receive approximately $1.4 million 
for school improvement activities.
    This is just a brief overview, of course, of our budget 
activities. The 2007 budget request for the Department of 
Education programs that are serving American Indians and Alaska 
Natives supports the President's overall goal of ensuring 
educational opportunities for all students.
    Thank you once again for this opportunity. At this time, I 
am happy to take any questions that you may have.
    [Prepared statement of Ms. Marburger appears in appendix.]
    The Chairman. Thank you very much.
    Ms. Marburger, your complete statement will be made part of 
the record. Yours, too, Mr. Cabrera.
    Ms. Marburger. Thank you.

 STATEMENT OF ORLANDO CABRERA, ASSISTANT SECRETARY, OFFICE OF 
  PUBLIC AND INDIAN HOUSING, DEPARTMENT OF HOUSING AND URBAN 
   DEVELOPMENT, ACCOMPANIED BY ROGER BOYD, DEPUTY ASSISTANT 
 SECRETARY FOR NATIVE AMERICAN PROGRAMS; PAULA BLUNT, GENERAL 
                   DEPUTY ASSISTANT SECRETARY

    Mr. Cabrera. Thank you, Mr. Chairman.
    Good afternoon, Mr. Chairman, Mr. Vice Chairman and 
distinguished members of the committee. Thank you for inviting 
me to address your committee.
    I am here to outline President Bush's fiscal year 2007 
budget for HUD's Indian Housing and Community Development 
Programs, and also to answer any questions that you may have.
    My name is Orlando Cabrera and I am the assistant secretary 
for Public and Indian Housing at HUD. As assistant secretary, I 
am responsible for the management, operation and oversight of 
HUD's Native American programs. These programs are available to 
all 561 federally recognized Indian tribes, Alaska Natives, and 
Native Hawaiians. We serve these groups either directly or 
through their tribally designated housing entities, which I 
will refer to from now on as TDHE's.
    The Office of Public and Indian Housing provides grants and 
loan guarantees designed to support affordable housing and 
community development in Indian country. Seizing momentum is 
key as we continue to work together toward creating more and 
better housing for Indian country and the Hawaiian Homelands.
    At the outset, let me reaffirm this department's support 
for the principle of government-to-government relations with 
federally recognized Native American tribes. HUD is committed 
to honoring this core belief in our work with all of our 
stakeholders.
    The President believes in an ownership society. HUD's 
Native American and Native Hawaiian loan guarantee programs are 
the engines that drive HUD's homeownership efforts in Indian 
country and Hawaii. For example, during fiscal year 2005, 
tribes and their TDHE's used Indian housing block grant funds 
to build, acquire, or rehabilitate 1,050 rental units and 5,455 
homeownership units. Each of these became a home to a Native 
American family.
    Let me now turn to the President's budget request for 2007. 
This budget proposes a total of $695,990,000 specifically for 
Native American and Native Hawaiian housing and community 
development; $625.7 million is proposed under the Native 
American Housing Assistance and Self-Determination Act of 1996, 
otherwise known as NAHASDA. Of that amount, approximately $620 
million is for direct formula allocations through the Indian 
Housing Block Grant Program.
    The President's budget proposes $1.98 million in credit 
subsidy for NAHASDA's Title VI program that will in turn 
encourage $14.9 million in private sector investment. The 
President proposes to fund the Indian Community Development 
Block Grant Program at $57.4 million. The Indian CDBG Program 
will continue to be administered by HUD's Office of Native 
American Programs. $5.9 million in credit subsidies is proposed 
for the section 184 Indian Housing Loan Guarantee Fund, which 
will provide $251 million in loan guarantee authority.
    This budget also recognizes the unique housing needs of 
Native Hawaiian families eligible to reside on the Hawaiian 
Homelands. HUD continues to address those needs. The Native 
Hawaiian community would receive $5.9 million for the Native 
Hawaiian Housing Block Grant Program, and $1 million for the 
section 184A Native Hawaiian Loan Guarantee Fund, which will 
leverage approximately $43 million in loan guarantees.
    Finally, there is a total of $3.8 million available for 
training and technical assistance to support the Indian and 
Native Hawaiian Housing Block Grant Programs.
    I would like to focus on one program, if I might, which is 
HUD's section 184 program, which addresses the special needs of 
Native Americans, making it possible for Native American 
families to achieve homeownership with market-rate financing. 
Its corollary for Native Hawaiians is the Section 184A program. 
These comments would apply to both.
    Overall, the section 184 program has been a great success 
and the department believes that this program will continue to 
play a vital role in reaching the President's commitment to 
create 5.5 million minority homeowners by the end of this 
decade. To improve the visibility of the program in fiscal year 
2005, HUD decentralized its outreach efforts to tribes and 
lenders, which enabled the department to connect with more of 
our clients at the local level.
    The new approach resulted in 634 new homeowners and more 
than $100 million in loan commitments in fiscal year 2005. The 
loan commitment volume is up 68 percent over the year-end 
totals for 2004. This trend has continued in fiscal year 2006, 
with 224 loan guarantees worth $28.2 million completed in the 
first quarter of fiscal year 2006, a 58-percent increase over 
fiscal year 2005.
    I hope that this adequately summarizes our budget for 
Native American, Alaska Native and Native Hawaiian programs at 
HUD. Thank you for your attention. This concludes my prepared 
remarks and I stand ready to answer any questions you may have.
    [Prepared statement of Mr. Cabrera appears in appendix.]
    The Chairman. Thank you very much.
    Ms. Schofield.

  STATEMENT OF REGINA SCHOFIELD, ASSISTANT ATTORNEY GENERAL, 
       OFFICE OF JUSTICE PROGRAMS, DEPARTMENT OF JUSTICE

    Ms. Schofield. Thank you, Mr. Chairman, Vice Chairman 
Dorgan and members of the committee.
    I am Regina Schofield, the assistant attorney general for 
the Office of Justice Programs. On behalf of the Attorney 
General and the Department of Justice, I stand here today ready 
to discuss the Department's proposed fiscal year 2007 budget 
priorities for Indian country.
    The needs of Indian tribal governments in combating crime 
and violence continue to be great, especially in the areas of 
substance abuse, domestic violence, and other violent crimes. I 
share the administration's commitment to addressing these needs 
and have made the government-to-government improving 
relationship between tribes and the Federal Government a 
personal priority. Since I came to OJP 8 months ago, I have set 
up a Justice Programs Council on Native American Affairs which 
will coordinate OJP's work with tribes and serve as a liaison 
with other Justice components on tribal issues.
    Another new tool that will soon become available is the DOJ 
websites specifically created for Indian country, which will 
feature information on a variety of Justice issues, as well as 
grant funding and training. These efforts are designed to 
improve communication and to help build tribes' capacity to 
create and leverage resources.
    Although this budget request does not provide an increase 
of Federal dollars, it does provide tribal officials with 
flexibility in how to spend these dollars and the tools to 
spend them most effectively. For example, one of the many 
challenges that Indian tribes face is collecting reliable data 
on criminal justice-related issues. We have requested 
approximately $39 million for the National Criminal History 
Improvement Program, a portion of which can help tribes improve 
data collection.
    Tribes and States must coordinate in collecting reliable 
data and ensuring that this data is readily available. This is 
especially true for the several tribes that cross multiple 
jurisdictions such as the Navajo Nation in Arizona, New Mexico, 
Utah, and the Standing Rock Tribe in the Dakotas.
    Another of our goals is to make it easier for tribes to 
apply for and use our grant funding. This committee was 
instrumental in the passage of several pieces of legislation 
regarding tribal self-governance and self-determination that 
have permitted tribes greater flexibility. This has allowed 
tribes to demonstrate their ability to effectively administer 
Federal programs. The department is requesting $31.1 million 
for the consolidated tribal grant program, which can be used to 
hire tribal law enforcement, prosecutors, or judicial 
officials, as well as to purchase or upgrade equipment.
    For the drug courts program, we have requested $69.2 
million and we have already seen the impact that drug courts 
can have on tribal communities. When the First Lady traveled to 
Phoenix to promote her Helping America's Youth initiative last 
April, she met with many Indian youth and tribal leaders. She 
spoke with a girl who completed the Salt River Pima-Maricopa 
Indian community's juvenile drug court program and is now 
working toward completing her GED.
    We are also working on building tribes' capacity to combat 
domestic violence. We are combining the Office on Violence 
Against Women funds into a single tribal grant program so that 
only one application will be necessary. In addition, the new 
DOJ reauthorization increases the tribal set-aside from 5 
percent to 10 percent of available funds for OVW grants. We 
anticipate that no less than $25 million will be available for 
assistance to tribes from the fiscal year 2007 request.
    We have worked with the Boys and Girls Clubs of America for 
more than 15 years to serve young people in tribal communities 
to reduce juvenile crime. I believe that the Boys and Girls 
Clubs' outreach to young people can and should be expanded. We 
have requested $59.5 million to continue this work.
    The department will honor our Federal trust responsibility 
and continue to assist tribal justice systems in their effort 
to promote safe communities. Both our current activities and 
our fiscal year 2007 proposed budget reflects these priorities.
    I would welcome the opportunity to answer any questions. 
Thank you.
    [Prepared statement of Ms. Schofield appears in appendix.]
    The Chairman. Thank you very much, Ms. Schofield.
    Mr. Cason, the budget request for trust resources 
management proposes a decrease of over $10 million for trust 
resources management from last year's enacted level of $152 
million, but proposes an increase of $11 million in trust real 
estate services. What is the difference? What am I missing 
here?
    Mr. Cason. Mr. Chairman, the increases in the trust real 
estate services is to get to a fundamental problem that we 
have. That is to ensure that we have clear and accurate and 
contemporaneous information about ownership of trust assets. As 
I have testified in other forums, we have probably the largest 
trust in the world, with 56 million acres, 45 million of which 
belongs to tribes and a little over 10 million that belongs to 
individuals.
    One of the things that we are encountering is two serious 
backlog problems. The first is with probate, that when we have 
Indian trust assets, we are responsible for probating the trust 
assets upon the death of the owner. We have a backlog of 
probates that date back to the 1890's. We have open probates in 
every decade since the 1890's. That is clearly an unacceptable 
position to be in.
    Families who are the intended recipients of probated trust 
assets need to get their estates probated in a timely fashion 
and that is not happening. So we have put more resources there.
    The other major problem is on trust real estate activities, 
where we have not entered the information about encumbrances 
and trust transactions in a timely fashion. So we have a 
backlog there, too, that we are investing in eliminating.
    The Chairman. Dr. Grim, I see that the Urban Indian Health 
Program has been zeroed out. It is my understanding, then, it 
is expected that Native Americans would take advantage of 
community health centers. Is that the thinking here?
    Mr. Grim. That was one of the examples that we used in the 
budget justification, Mr. Chairman, that over the course of 
this administration there have been large increases into HRSA's 
Community Health Center Program and Urban Indian Health 
Programs have, as you all know, historically been hovering 
around about 1 percent of our budget. So two of the precepts 
that we used within the department in the overall budget 
analysis was to look where we think the highest potential 
payoff in our instance for increases in health, and then 
looking at programs that might be supported elsewhere. CHC's 
were one example.
    The Chairman. Is there a budget request from the 
Administration to increase by that level for Community Health 
Centers?
    Mr. Grim. No, sir; not specifically, but the budget request 
for the CHC's for 2007 is I believe a $188-million increase, 
although not a specific set-aside for urban Indian programs.
    The Chairman. There are urban Indian health programs not 
only just a program, there are facilities that provide for 
urban Indian health care. What are you going to do with those 
facilities?
    Mr. Grim. There are a broad range of programs that are 
funded by the IHS under the Urban Indian Health Program. We 
have taken a look and done a number of analyses. With some 
programs, there will be relatively little impact by the removal 
of Indian Health Service funds. Many of them have gone after 
numerous State, county and other Federal grants over the years. 
Our funding percentage-wise is less than 10 percent of their 
overall total budget.
    On the other hand, there are programs that are resourced by 
us at about the 80-percent level. Those, unless additional 
funding is found by their program administrators, will likely 
have to close. Most of those that are in that arena, although 
not all, are referral-type programs as well. We have a range 
from referral- and outreach-type programs that we fund, clear 
to a near fully ambulatory health care center delivery-type 
system. So there is a very broad range of types of programs we 
fund in that, and varying impacts by grantee.
    The Chairman. I would argue in States like mine, Dr. Grim, 
it is a pretty significant impact, including major facilities.
    Ms. Marburger, you eliminated the Johnson O'Malley Indian 
Education Program in the President's budget request. Right?
    Ms. Marburger. Yes, sir.
    The Chairman. $16 million. Was the $16 million eliminated 
from Johnson O'Malley moved to the Department of Education 
budget?
    Ms. Marburger. That is actually not a program in the 
Department of Education.
    The Chairman. Well, it is a BIA program.
    Ms. Marburger. Yes.
    The Chairman. It was eliminated, right? The Johnson 
O'Malley program was eliminated under the President's budget 
request. Right?
    Mr. Cason. Mr. Chairman, I might help out. That is in the 
BIA budget and yes, that program was zeroed out. The 
discussions that we have had internally to the administration 
is the belief that overall that duplicated other efforts to 
supply funding to public schools and that as a matter of 
tradeoffs, that did not appear to be as high a priority as 
maintaining the core of BIA's education programs. So that did 
end up being a tradeoff.
    The Chairman. The committee, Ms. Marburger, has received 
testimony that No Child Left Behind has imposed accountability 
standards without sufficient funding to meet those standards. 
It indicates approximately $1 billion in direct support is 
available for Indians and Alaska Natives in this year's 
proposed budget.
    Will this funding enable Indian students to bridge those 
achievement gaps in BIA-funded and local schools with 
significant student populations to meet the requirements of No 
Child Left Behind?
    Ms. Marburger. That is exactly what our budget is targeted 
to do. I think that one of the very positive aspects of that is 
the money that we are requesting specifically for SEA's and 
school and district improvement. For the first time, we will be 
providing money to them to help them provide the technical 
assistance at the local level to target their interventions and 
to really take a close look at how students are achieving so 
that they can tailor their program to better meet the needs of 
students.
    The Chairman. Mr. Cabrera, do you know what the backlog is 
for Indian housing?
    Mr. Cabrera. Mr. Chairman, just for a point of 
clarification, backlog in what respect? In terms of units?
    The Chairman. Yes; or money.
    Mr. Cabrera. I don't think we have any study right now that 
tells us what the backlog in terms of construction might be. We 
do have enormous amounts of progress in terms of 184's. So 
there has been a lot of demand for mortgages in Indian country 
over the last 2 years.
    The Chairman. But you don't have a handle on what the 
requirement for Indian housing is in Indian country that is 
outstanding?
    Mr. Cabrera. Most of the grants that are provided for 
Indian housing have a nexus to homeownership. Those, it is not 
so much grants, as the loan guarantees. So really what we 
measure is the number of units that are purchased by Native 
Americans in Indian country, and for that matter Native 
Hawaiians. In that respect, in the last couple of years, we 
have had an increase on the order of 60 percent over previously 
utilized numbers.
    The Chairman. For the record, maybe you could provide us 
with that information.
    Mr. Cabrera. Yes, sir.
    The Chairman. Ms. Schofield, last year Congress 
appropriated funding in the Department of Justice budget to 
build one new Indian detention facility. The NCAI will testify 
that there is an immediate need to build at least 15 new 
detention facilities in order to address the ongoing detention 
facility crisis in Indian country, and it is a crisis. What is 
your response to that?
    Ms. Schofield. I am aware that there is about $7 million 
left in that fund, and Senator, that is not enough money to 
build any new facilities. What I would like to do with the 
remaining funds is to make sure that we are providing some type 
of architectural and design specifications for tribes so that 
we can get the money out the door. But quite frankly, unless 
there is a lot more money put into the pot, you are not going 
to be able to build any new facilities.
    The Chairman. Well, I would hope that you would request 
that additional money, Ms. Schofield.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Ms. Schofield, as I understand it, in the Department of 
Justice you have taken tribal courts, tribal prison 
construction, tribal alcohol programs, tribal youth programs 
and zeroed them out, increased the tribal COPS program to $31.1 
million, rolled it all into a block grant, and said you have 
more flexibility, right? Is that what you have done?
    Ms. Schofield. Well, no, sir, we have not eliminated those 
programs. What we have done is requested a $31.1-million so 
that OJP and COPS can work together into streamlining all of 
those grants so that we can address more pressing needs. 
Previously, that money has been available only for law 
enforcement. If we are allowed to put together the $31.1-
million as requested by the President, that money can be made 
available for meeting more pressing needs in Indian Country, 
and you can also move beyond hiring just law enforcement and 
move into helping build and improve on court operations, hiring 
judicial officials, and prosecutors.
    Senator Dorgan. But last year, we funded those programs at 
$46 million. This year you are making $31 million available. Is 
that correct?
    Ms. Schofield. Sir, I am not familiar with last year's 
budget.
    Senator Dorgan. Well, the tribal courts, last year $7.9 
million, and zeroed out this year; tribal prison construction 
$8.9 million and zeroed out this year; tribal alcohol $4.9 
million and zeroed out this year. So as I add these up, last 
year we spent about $46 million. This year we will spent $31.1 
million with more flexibility. That is not streamlining. That 
is a pretty significant cut in law enforcement areas, in my 
judgment. Wouldn't you agree?
    Ms. Schofield. Well, I would hope that in one of the things 
I learned in previous positions in the Federal Government is 
the ability to have more grants at Indian country's disposal as 
opposed to sending people to one stream of funding. So my 
personal priority is to make sure that we are making sure that 
the tribes can tap into all sorts of funding availabilities at 
the Department of Justice.
    Senator Dorgan. I don't understand that, because the area 
where they would tap into funding would be where we have 
appropriated money, and in the next panel we are going to have 
Mr. Garcia testify, the National Congress of American Indians, 
saying, ``tribal leaders have consistently identified law 
enforcement, justice and homeland security as key concerns in 
the 2007 budget.''
    My only point is that I have traveled to many reservations, 
law enforcement is a serious issue, a significant problem. It 
looks to me like you are taking $46 million and turning it into 
$31 million, and portraying it to us as streamlining. It 
appears to me that is a very serious problem if you are trying 
to deal with law enforcement issues on reservations.
    If you don't mind, I will submit some additional questions 
on that. I just think these law enforcement issues have to be 
adequately funded, and we will hear more from the next panel.
    Let me ask Dr. Grim, what would it cost for us to provide 
sufficient funding so that we are staying even on health care 
costs for Native Americans in this coming fiscal year?
    Mr. Grim. We think the current budget proposal does that. 
We have money in every appropriate line item with either the 
medical inflator or the nonmedical inflator. We have increases 
for population growth. We have been seeing increases in our 
users annually and there is money in there for that. We have 
full payout costs for tribal and Federal programs. So we feel 
like the current budget is a budget that does just what you 
said, and in fact with the increased population growth funds, 
we feel that we will be able to serve 30,000 more beneficiaries 
this next year.
    Senator Dorgan. Well, would I be wrong to say that we are 
serving somewhere in the area of 60 percent to 65 percent of 
the existing need for American Indians with respect to health 
care?
    Mr. Grim. That number comes from an internal study that we 
did, and used as a funding methodology for one of the line 
items that we have, the Indian Health Care Improvement Fund, 
that sometimes is funded. It was not funded in 2006, but we use 
that methodology, compared it against the Federal Employees 
Health Benefit package as a comparative analysis so that we 
would have something to judge all of our programs against. That 
figure comes from that, and we use that methodology internally 
for budget distribution.
    Senator Dorgan. So we are funding somewhere around 60 
percent to 65 percent. That means somewhere between 40 percent 
and 35 percent of the health care issues for Native Americans 
is unmet at this point. Would that be accurate?
    Mr. Grim. Relative to this one comparator.
    Senator Dorgan. Well, if you make a comparison and come up 
with that number, that is the number. Is it reasonably accurate 
to say that 40 percent to 35 percent of the health care needs 
are unmet?
    All right. My view of this submission is there is an 
increase to be sure, but as I look at this it appears to me the 
increase is somewhere just over 2 percent and again we will 
have testimony in the next panel, and I will refer to it in 
just 1 moment, suggesting that in order to just stay even, to 
maintain existing health care services and restore loss of 
buying power, meet the needs of the increased population, you 
would have to be requesting an increase of $485 million to 
existing services. Do you disagree with that?
    Mr. Grim. Yes, sir; the budget increase for the agency this 
year is a 4.1-percent increase, and because of the reductions 
that we noted on the facility side and the urban program side, 
when you net it out, it is actually a much higher increase than 
the $124-million, and all primarily directed at the health 
services side of the budget, as well as environmental health 
and engineering the sanitation facilities increases that were 
noted earlier.
    So in a deficit reduction year of budgets, it is I think a 
very strong budget and one that does keep pace with the 
inflationary and population growth increases.
    Senator Dorgan. Yes; well, this is not a deficit reduction 
budget in every area. There are some areas that are treated 
very generously.
    First of all, let me say that I am pleased that these have 
not been cut. I am pleased there is an increase, but I would 
note that I think we are far short of serving the need that we 
are required to serve, and I think with contract health and 
other issues, we are going to have to really think through with 
the Budget Committee what we do here.
    You know and I know that we have circumstances with the 
contract health area where it is a life and limb description. 
That is the only way you get that service, if you are 
threatened with loss of life and limb.
    Let me ask Ms. Marburger with respect to tribal colleges. 
My understanding is that we provide Federal support for tribal 
colleges at about half the rate of Federal support that goes to 
community colleges per student. Do you have any information 
about that?
    Ms. Marburger. I would like to ask my colleague.
    Mr. Corwin. Senator, I am Thomas Corwin from the 
Department's Budget Service. We do not have a standard program 
of support for community colleges, so I don't think we would 
have data to back up that statement.
    Senator Dorgan. I am going to send you a question about 
that because I have seen comparisons about support for students 
at community colleges through the various Federal programs and 
support that exists for those who go to tribal colleges. It is 
about roughly 50 percent to 60 percent. So I am going to send 
you some questions about that and see if we can get some 
information about it.
    I would like to finally ask Mr. Cason, if I could, you had 
a requirement to pay attorneys fees, I believe, with respect to 
the trust settlement. The Department of the Interior had a 
requirement to pay attorneys fees and I think it was in the 
neighborhood of $5.7 million?
    Mr. Cason. $7.066 million.
    Senator Dorgan. And you paid those attorneys fees out of 
Indian program funds, which include, there is an obligation, I 
believe, in Indian program funds that is for the payment of 
those costs, but the Office of Special Trustee has a litigation 
cost fund for Cobell litigation that is part of the Office of 
Trust Records' budget. My understanding there is money in that, 
but that was not used for it. Instead, the money came out of 
Indian program funds. Is that correct? If so, why?
    Mr. Cason. That is correct. There are two things that are 
important. Firs, the department has a couple of pots of money 
that are used for managing the day-to-day activities of the 
Cobell litigation. Between the commitments we have in the 
Department of the Interior and the commitments that we pay for 
at the Department of Justice, we are actually short on those 
funds just to manage day-to-day Cobell costs.
    When we got the judgment from Judge Lamberth to pay $7.066 
million in attorneys fees under EAJA, the Equal Access to 
Justice Act, we were told that we could not take those funds 
from the judgment fund and that they had to come out of program 
funds. We looked at a wide variety of alternatives to pay those 
funds and in the end of that process basically I made the 
decisions for the department to try to spread the impact across 
a number of programs to minimize the impact on any one single 
program.
    Ross in the OST Program contributed some money into the 
process, BIA did, the Office of Historical Trust Accounting 
did. We got a big chunk of money from the Department of 
Treasury. So what we attempted to do was spread the impact, the 
adverse impact on the Sunplant  expense across a number of 
programs so that no one program would be hurt terribly.
    Senator Dorgan. I am going to send you some additional 
questions about that. I do not want to spend a lot of time on 
it.
    Let me just finally, Mr. Chairman, say this. I have, as I 
have said and I am sure members of the committee have all 
traveled extensively to Indian reservations, and I have been to 
many parts of the world and seen substantial amounts of 
poverty. I have stood at City Soleil in Port-au-Prince, Haiti, 
and many parts of the world, and have seen very substantial 
poverty and difficulty.
    I think all of us, you on the panel and those on the 
committee, understand that you can go to parts of this country 
and think that you are on a completely different continent, in 
the midst of enormous poverty, people living in conditions that 
are really, really tough.
    So we have this hearing and it sounds just like reasonable 
things, you know, we are streamlining this, we are changing 
that, we are making a few adjustments here or there. Let me 
again, Mr. Chairman, say I think we have a full-blown crisis in 
a number of areas in this country, particularly dealing with 
Native Americans, particularly dealing with children and the 
elderly, with respect to housing, education and health care. I 
do not think that just nibbling around the edges on these 
issues really does the job very much.
    If I were, and I think if most members of this committee 
were tribal Chairs trying to figure out how you meet these 
needs with the resources that exist, it is probably not just 
tough. It is probably impossible.
    So I hope that we can pole-vault over some of these notions 
of just inching forward in some areas and seeing if we can't do 
a quantum leap in trying to address what are some serious human 
problems that desperately call out for resources. There are 
other areas in our budget that get lots and lots and lots of 
resources. We will get $120 billion request very soon, 
emergency, none of it paid for, that will add up to somewhere 
over $300 billion in total. We will do that just like that. But 
God forbid it should be for the health and welfare of Indian 
children or others living in conditions of extreme poverty.
    I am proud to serve on this committee and proud to serve 
with some colleagues that care a great deal about this as well. 
I hope that all of us can understand the urgency of it and 
begin to make some real progress.
    The Chairman. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    Mr. Cason, it is a number of agencies involved in this 
budget, correct?
    Mr. Cason. Yes.
    Senator Thomas. I do not have a total here. What is the 
total of the budget for Indian activities?
    Mr. Cason. Within the Department of the Interior?
    Senator Thomas. No; the total.
    Mr. Cason. Across Government?
    Senator Thomas. Yes.
    Mr. Cason. What I am told is that it is in the order of $11 
billion, if you add up all the programs in the various agencies 
we have here.
    Senator Thomas. $11 billion.
    Mr. Cason. Yes.
    Senator Thomas. And do you know how that compares with last 
year?
    Mr. Cason. I don't.
    Senator Thomas. I guess if there is an agency that has some 
oversight or some, at least not oversight necessarily, but 
coordination, it would be your agency. Isn't that correct?
    Mr. Cason. We do attempt to do that. Dr. Grim and I have 
worked together, the Department of Education and I have worked 
together. We are commonly working with the Department of 
Justice on our programs. So I think there is a fair amount of 
coordination that goes on between the agencies, albeit we have 
different missions.
    Senator Thomas. Yes; I guess I have to say I am a little 
surprised to see the budget broken down. I understand there are 
different agencies, but it would seem to me there would be some 
good reason to have a total overview of it among all the 
agencies so that the total end-game points toward the 
priorities of needs within the Indian country. Do you agree 
with that?
    Mr. Cason. That sounds reasonable.
    Senator Thomas. I just am a little surprised at the 
diversity that there is in terms of putting the budget 
together. Is there any oversight? Does anybody kind of have an 
overview of what the priorities are in general, and then how 
that impacts the total? Or does everyone just kind of do their 
own thing?
    Mr. Cason. Well, my impression about that coordination 
point would be the Office of Management and Budget, because all 
of our budgets basically stream through OMB, and that is where 
I have received my figures about the overall Indian budget. So 
I think OMB is taking a look at all the various parts.
    Senator Thomas. I understand the numbers. I am talking 
about the activities. I am talking about looking into the 
future and dealing with some of the things Mr. Dorgan talked 
about in terms of changing some fo the social problems in the 
Indian country, and how the budget ought to be doing that, 
rather than just making it a mathematic operation. That is just 
the view I have, and it seems to me it is kind of important.
    I don't know. Who does energy things among you? Anyone?
    Mr. Cason. We do have energy programs within the BIA. As 
the trustee for the 56 million acres under our care, the 
Government's care, we have energy mineral programs on that 
land.
    Senator Thomas. Do you have some activities with regard to 
the budget there in terms, for instance, of developing the 
opportunities for energy development to help the tribes 
financially?
    Mr. Cason. Yes; we do. We actually went through a process 
during this year to move the Energy and Minerals Program under 
the Deputy Assistant Secretary for Economic Development so that 
we could highlight the potential for energy and minerals to 
provide economic development opportunity for tribes. We are 
going through a process right now of working with the tribes to 
identify the best potential energy and mineral deposits on 
Indian country that are potentially developable and then we 
would work with industry for those the tribes want to develop 
to see if we can get industry interest in those.
    Senator Thomas. Good. I hope so. Again, it seems to me we 
ought to be giving a little more emphasis, a little more focus 
on the future and what is going to happen on the tribal lands 
and with the tribes, rather than just this year's needs. One of 
the real opportunities, at least on some of the reservations, 
is the development of energy facilities which would be very 
economically helpful.
    Over in education, you talked some about junior colleges 
and so on. Are those primarily, do you work with the 
surrounding regular community colleges for Indian programs in 
them? Or are you oriented to Indian schools separately?
    Ms. Marburger. We do have programs that support tribal 
colleges and universities.
    Senator Thomas. What does that mean, tribal colleges and 
universities?
    Ms. Marburger. These are colleges that actually support----
    Senator Thomas. Exclusively tribal?
    Ms. Marburger. I do not know if they have a mission to 
others, but they are focused specifically on serving the 
tribes, yes.
    Senator Thomas. The smaller reservations are not going to 
have those specifically. There are not enough people involved 
so you have to work with the surrounding communities. I guess 
that is my interest. And you do that?
    Ms. Marburger. I do not know of our activities in that 
area, but I would be happy to get back to you with regard to 
that.
    Senator Thomas. I wish you would please.
    [Information follows:]

             TRIBALLY CONTROLLED COLLEGES AND UNIVERSITIES

    The Strengthening Tribally Controlled Colleges and 
Universities [TCCU's] program is authorized under Title III, 
Part A, Section 316 of the Higher Education Act of 1965, as 
amended. The program awards discretionary grants that enable 
TCCU's to improve and expand their capacity to serve American 
Indian students. Applicants are limited to tribal colleges and 
universities--defined as such by section 2 of the Tribally 
Controlled College or University Assistance Act of 1978-plus 
any institution listed in the Equity in Educational Land Grant 
Status Act of 1994. There are 32 federally recognized Tribal 
Colleges and Universities in the United States. Most of the 
TCCU's are 2-year schools. Located mainly in the Midwest and 
Southwest, Tribal Colleges and Universities offer 2-year 
associate degrees in over 200 disciplines with some providing a 
bachelor's and master's degree. They also offer 200 vocational 
certificate programs.
    Institutions may use their funds to plan, develop, and 
implement activities that encourage: faculty and academic 
program development; improvement in fund and administrative 
management; construction and maintenance of instructional 
facilities, including purchase or rental of telecommunications 
technology equipment and services; student services; or the 
establishment of a program of teacher education with a 
particular emphasis on qualifying students to teach Indian 
children. In addition, TCCU's may use their funds to establish 
community outreach programs that encourage Indian elementary 
and secondary school students to develop the academic skills 
and interest to pursue postsecondary education.

    Senator Thomas. Dr. Grim, finally, you mentioned something 
about eliminating funding for Indian Affairs?
    Mr. Grim. For the Urban Indian Health Programs.
    Senator Thomas. Oh, urban.
    Mr. Grim. Yes, sir.
    Senator Thomas. Because there is $3 billion in the budget 
for Indian Affairs.
    Mr. Grim. I said overall we had a net 4.1-percent increase, 
but there were two reductions over 2006 enacted budget for us. 
One of them was in health care facilities at a minus $20 
million for 2006 enacted, and the Urban Indian Health Program 
at minus $32 million. That was a redirection of those 
resources.
    Senator Thomas. I see. I misunderstood what you said.
    Mr. Grim. It was a component that is approximately 1 
percent of our budget that funded 34 grants to urban Indian 
health organizations that did anywhere from outreach and 
referral sorts of services to ambulatory care services in 
different communities around the Nation, urban communities.
    Senator Thomas. There is an increase in Indian Health 
Service, correct?
    Mr. Grim. Yes, sir.
    Senator Thomas. How much is that?
    Mr. Grim. $124 million net over 2006, so 4.1 percent. But 
if you factor out the two decreases that make it net, it adds 
back in another $50 million as well, again, going to the health 
services side for the tribes' reservation clinics and 
hospitals, and also to environmental health and sanitation 
activities.
    Senator Thomas. Okay. Fine, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ms. Schofield, have you had an opportunity to familiarize 
yourself with the Alaska Rural Justice Commission report? This 
was a report that came out last year, a collaborative effort 
amongst Alaska Natives and those on the law enforcement side 
just looking at the issues specific to the State and Alaska's 
natives and how we might deal with some of the enforcement 
issues?
    Ms. Schofield. No, Senator; I have not, but I will.
    Senator Murkowski. Okay. We will make sure that we have a 
copy sent over to your office. After you have had a chance to 
look at it, I welcome the opportunity to sit down with you and 
discuss some of what you are doing with your program, and what 
some of the challenges we are facing up north would be. So I 
would look forward to that.
    Mr. Cabrera, I know you and I have been trying to set up a 
time for you to visit the State to understand better some of 
our housing needs as they relate to our rural villages with our 
Alaska Natives. We will be working with you to set that date. I 
think it is important that you have an opportunity to see 
first-hand some of the challenges that we experience, and I am 
looking forward to doing that with you.
    Again, Ms. Marburger, I will extend the invitation to 
Secretary Spellings. When Secretary Paige made the trip up, we 
were successful in kind of sitting together with not only 
Secretary Paige, but the Secretary of Health and Social 
Services, the HUD Secretary, in discussing what we called at 
that time the Alaska Project. You mentioned in your comments 
that there are significant risk factors that face our Indian 
students, our Alaska Native students.
    We learned that it is not just about delivering education 
within the four walls of the classroom. There are other 
factors, whether it is the extremely high incidence of FAS, the 
domestic violence, the sanitation issues that lead to the 
health care concerns, the housing issues, when you have the 
principal of the school living in the broom closet there in the 
school. These were factors that kind of all go into the 
education component. So I would like to re-start those 
discussions again at that higher level, if we can do that. It 
would be important to have the Secretary's input on that.
    Dr. Grim, you mentioned, and I mentioned in my opening 
comments, the facilities construction budget and where we are. 
You have indicated that the way going forward is more of a 
treatment versus infrastructure approach. But as you know, 
because you have visited my State on so many different 
occasions, when you are hundreds and hundreds of air miles away 
and thousands of dollars in transportation costs away from the 
infrastructure, it is really difficult to talk about treatment.
    My question to you is, as far as the Barrow and Nome 
projects go, recognizing that they are number one and number 
two on that list, how is the Administration's proposal going to 
affect those plans going forward?
    Mr. Grim. I would point out that you are correct. They are 
on the priority list. They are the next in line and they are of 
sufficient size that in this particular year's budget and in 
the focuses that we have, that we put a hold on them until out-
years. But they are still a priority. We are working with the 
tribal corporations, both our headquarters staff and our area 
office staff up there, and we continue to work with them on A&E 
design work. They are in the process of getting ready to 
procure the property.
    So it was an issue of hard choices, as I said, but they are 
on the list and they are one of the next ones up.
    Senator Murkowski. They understand that, and they have been 
told that, as you know, for a number of years. So I need to 
know. What do I tell my constituents up there in Barrow, up 
there in Nome? Are we on or are we not on? You have given me 
the signal that yes, we are moving forward with the 
preliminaries, and I am pleased to know that that remains in 
process, but I also want them to understand that there is a 
timeline that they can look forward to.
    So as we move forward with that, I would ask for your very 
frank communication and truly a commitment to progress on these 
very, very important projects to us.
    Mr. Cason, last year we passed the Alaska Land Transfer 
Acceleration Act. This was intended to complete the conveyance 
of lands from the Federal government that were due the State of 
Alaska, as well as our Alaska Native corporations and the 
allotment applicants. The whole goal of this legislation was to 
complete these transfers by the 50th anniversary of statehood, 
which is coming up in just a few short years.
    In order to complete these conveyances, we have got to have 
adjudication of the Native allotment applications. I need to 
know whether the department believes that with this budget they 
have the sufficient resources to do the job.
    Mr. Cason. Senator, it is my understanding that the 
conveyances that are being done are managed by the Bureau of 
Land Management. I have had briefing papers from Henri Bisson, 
the State Director for BLM on that subject. As I recall, he 
anticipates it will take several years and is building that 
into the BLM budgets, but I do not know exactly what their 
budget is for that purpose, but it is on his radar screen.
    Senator Murkowski. Okay, we will ask that question in the 
Energy Committee as well.
    Can you explain to me why the BIA is not proposing the 
renewal of the grant? This is a $349,000 grant to Alaska Legal 
Services to support the Native Allotment Program. Again, this 
is the entity that is doing the processing of these 
applications, and apparently that was zeroed out.
    Mr. Cason. That would be one of the smaller programs that I 
mentioned earlier in my opening statement, that the principal 
responsibilities for carrying out the Native Allotment 
selection process and conveyances is within BLM, and that we 
played a secondary role. As we went through and prioritized our 
budget, we basically looked at all of the programs that were 
secondary and tertiary programs, and they were the first ones 
on the block to give tradeoffs for our core programs and 
maintaining the integrity of those.
    So it would be my suggestion that that is what happened. In 
that case, the BLM had the principal responsibility for it.
    Senator Murkowski. Well, we will be talking with BLM on 
that.
    Mr. Grim, one more question for you. This is one that you 
know I bring up regularly. This relates to the sanitation 
facilities construction in Alaska. You know what the needs are. 
You have seen first-hand. Tomorrow, I am going to have an 
opportunity in the Environment and Public Works Committee to 
speak to the Administrator of EPA, Steve Johnson, about the 
cuts and the reductions in the Village Safe Water Funding.
    As we know, when we are talking about the health needs of 
Alaska Natives, it comes down to some of the very, very basic 
things that you and I take for grant. As Senator Dorgan has 
mentioned, you can go to some of the communities in Alaska and 
really feel like you are back in a third world country. We are 
not talking about flush toilets. We are talking about hauling 
the human waste down a wooden boardwalk, slopping this stuff 
all over, and putting it into a lagoon.
    I need to again have your commitment reiterated on this 
issue, that when we are talking about meeting the health care 
needs, we have to address the sanitation issues and that 
facilities construction.
    Mr. Grim. You have my commitment. It is a strong component 
of our program. You did see a $1.8 million increase in it, 
again reflective of the increased costs of providing services 
so that we can at least stay where we were this past year.
    We hope to go further. As you know, that program is one of 
our stronger programs about using other dollars, too. During 
fiscal year 2005, we were able to bring in from other resources 
about 42 cents on the dollar of our budget, working with tribes 
and with other Federal agencies, for sanitation facilities for 
Indian communities.
    I have been to a number of your communities up there that 
still lack some of those very basic resources. I will commit to 
work with you and to see what we can do about that.
    Senator Murkowski. Well, we are making some headway, but we 
do need that continued commitment to make the difference.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I thank the witnesses for coming today and appreciate it.
    The next panel is Joseph Garcia, who is the president of 
the National Congress of American Indians. Kathleen Kitcheyan 
is a member of the board of directors of the National Indian 
Health Board and chairwoman of the San Carlos Apache Tribal 
Council. Ryan Wilson is the president of the National Indian 
Education Association. Cheryl Parish is the secretary and board 
member of the National American Indian Housing Council. And 
Gary Edwards is the chief executive officer of the National 
Native American Law Enforcement Association.
    President Garcia, we will begin with you. Please proceed. I 
will repeat, your complete written statements will be made part 
of the record. Please proceed.

STATEMENT OF JOSEPH A. GARCIA, PRESIDENT, NATIONAL CONGRESS OF 
                        AMERICAN INDIANS

    Mr. Garcia. Thank you, Chairman McCain and Vice Chairman 
Dorgan, for the invitation to appear before the Senate 
Committee on Indian Affairs today, and present the views of the 
National Congress of American Indians on the Administration's 
fiscal year 2007 budget request for Indian programs.
    This is my first opportunity to speak publicly with this 
committee at president of NCAI. I would like to say how much 
the member tribes of NCAI appreciate your service. Chairman 
McCain, it is an incredible honor for Indian Country to have 
your leadership in this committee. And Vice Chairman Dorgan, we 
are very proud of your service to Indian country.
    As Congress shapes this budget, NCAI urges you to include 
the priorities of Indian country, namely the promotion of 
strong Indian families in a safe, secure and self-reliant 
Native America. We are sovereign, independent, self-sustaining 
nations. Our mandated relationship with the U.S. Government 
puts us in a precarious position. Our success is dependent to a 
large extent on the Government's respect for tribal rights to 
self-determination and self-sufficiency.
    NCAI's Budget Task Force consulted national tribal 
organizations, the BIA Tribal Budget Advisory Council, and 
tribal leaders. We have identified the following areas for 
meaningful Federal investment in Indian country: public safety, 
health care, education, and self-determination programs such as 
contract support. Tribes have proven time and time again that 
we are a good Federal investment.
    Through the exercise of our inherent self-governing powers, 
tribes are able to contract and compact Federal programs for 
the benefit of both Indian and surrounding communities. Today, 
tribes operate one-third of IHS clinics. Tribes are the most 
accountable for their own resources, services and members, and 
have demonstrated resounding successes in recent years.
    The roots of success, where do these lie? Indian country 
has solutions for closing the educational achievement gap based 
on the values and lessons of our cultures, as evidenced by the 
achievements of culturally appropriate approaches. Academic 
studies show that Indian children flourish when their classroom 
experiences are built on our tradition, languages and culture.
    In 1994, the Alaska Rural Systemic Initiative began 
connecting students with elders in the community and creating a 
passion for learning by showing students how to explore science 
and history in light of their cultural heritage. Over a 10-year 
period, student performance went up, test scores improved, and 
dropout rates declined.
    Indian Head Start also has played a major role in native 
communities. This comprehensive program integrating education, 
health and family services has laid the foundation for many of 
today's tribal leaders. However, only about 16 percent of the 
age-eligible Indian child population is enrolled in Indian Head 
Start. Mr. Chairman, Mr. Vice Chairman, this is not acceptable.
    Tribes, though, have also stepped up to address the border 
security issues and the eradication of meth. The Tohono-O'odham 
Nation's 71-member police force is the first in frontline 
emergency and law enforcement responders to deal with the 
1,500-per-day traffic of undocumented immigrants and drug 
traffickers who cross the vast and vulnerable border. They 
expend about $10 million of their own resources to get this 
done.
    The nation is also compelled to provide health care or make 
other arrangements for the illegal immigrants found either dead 
or near-dead in the desert, and has absorbed the burden of 
cleaning up the six tons of trash littered on this reservation 
daily due to the immense illegal immigration. The nation has 
undertaken these activities to protect the homeland with almost 
no homeland security funding.
    Many reservations innovatively manage their forests under 
the principles of adaptive ecosystem management, with 
increasing quality and quantity of tribal forest management 
staff. On the White Mountain Apache Reservation, forest tending 
and field reduction activities stopped the events of the huge 
Rodeo-Chediski Forest fire. After the fire, the tribe and BIA 
quickly and successfully salvaged much of the logs from the 
burnt-over lands, using helicopter logging in the post-fire 
burn and area emergency recovery activities on the reservation. 
That drew national attention for the effectiveness.
    Tribal government, just like State and municipal 
governments, provide critical services, shape values and 
promote jobs and growth. Low Federal spending for Indians has 
lost ground, compared with spending for the U.S. population at 
large. Tribal self-governance has proved that Federal 
investment in tribes pays off.
    Between 1990 and 2000, income rose by one-third and the 
poverty rate declined by 7 percent. A Harvard study showed that 
these gains occur with or without gaming. Tribal governments 
have worked hard to put laws in place that promote economic 
activity, and Indian reservations are the next opportunity for 
the American economy.
    But this is only the very beginning. Real per capita income 
of Indians living on reservations is still less than one-half 
that of the national average. Unemployment is still double what 
it is for the rest of the country. The poorest counties in the 
United States are on tribal lands. So we still have yet to join 
the success of the rest of the Nation.
    The success of Indian country in self-governing and 
managing the resources warrant continued Federal investment in 
tribal self-determination. We are concerned that this year's 
budget request reduces effective funding for tribal priorities. 
NCAI urges Congress to honor its commitments to Indian nations 
and provide tribes with the necessary tools for continued 
progress through the promise of strong tribal self-government.
    We ask that these recommendations be taken more closely to 
heart as the fiscal year 2007 budget advances. First, tribal 
leaders have consistently identified law enforcement, justice 
and homeland security as key concerns in the fiscal year 2007 
budget. A primary role of tribal government is to ensure the 
security and safety of Indian communities and families, tribal 
lands and resources, and the United States through law 
enforcement, detention and strong judicial systems. Our written 
testimony outlines the critical link Indian country plays in 
securing our lands and our country. Through significant, but 
incremental increases over several years, Indian country public 
safety programs can reach adequate funding levels.
    NCAI supports sustained 8 percent to 10 percent annual 
increases in the Interior Department and Justice Department 
Indian country public safety programs for fiscal year 2007 
through fiscal year 2009. NCAI also supports a special funding 
initiative to build the next 15 Indian country detention 
facilities.
    Second, poor health continues to inhibit the economic, 
educational and social development of all of Indian country. 
American Indians and Alaska Natives receive life or limb 
service under current conditions, meaning funds are only 
available to treat the most life-threatening illnesses. NCAI 
urges Congress to fund IHS at a level to at least maintain 
existing health services and to restore loss of buying power.
    We also oppose the zeroing-out of the Urban Indian Health 
Program. Urban Indian Health provides a critical link in the 
health care chain that cannot afford to be broken and cannot be 
replaced by other health services.
    Third, NCAI encourages this Committee to invest in Indian 
education through support of native languages, Indian Head 
Start, tribal colleges and restoring the Johnson O'Malley 
Program in BIA.
    Finally, self-determination programs throughout the budget. 
Initiatives this Administration has expressed consistent 
support for are critical to tribes' ability to effectively 
assume local control. Contract support costs, tribal priority 
allocations, 638 pay cost increases, and the administrative 
cost grants, all support Indian self-determination.
    NCAI commends the requested increase for BIA indirect 
contract support for fiscal year 2007. Failing to fully 
reimburse contract support costs in the Indian Health Services 
effectively penalizes tribes for exercising their self-
determination rights. It forces cuts to tribal programs in 
order to cover the shortfall and leads to partial termination 
of the Federal Government's trust responsibility. As a matter 
of Federal contracting principle, tribal contractors, like all 
other government contractors, should be promptly paid in full. 
We encourage Congress to fully fund contract support this year 
and in the future.
    Finally, as you know, there are dozens of specific budget 
recommendations in our written testimony that we do not have 
time to discuss at this time. NCAI realizes Congress must make 
difficult budget choices this year. As elected officials, 
tribal leaders certainly understand the competing priorities 
that you must weigh over the coming months. However, the United 
States Government's trust relationship remains unchanged, as 
well as Indian country's proven success in addressing the needs 
and concerns of our communities, which makes tribes a good 
investment for the Federal Government.
    Thank you for the time and the opportunity.
    [Prepared statement of Mr. Garcia appears in appendix.]
    The Chairman. Thank you very much.
    Kathleen Kitcheyan. Welcome.

 STATEMENT OF KATHLEEN KITCHEYAN, MEMBER, BOARD OF DIRECTORS, 
NATIONAL INDIAN HEALTH BOARD, AND CHAIRWOMAN, SAN CARLOS APACHE 
                         TRIBAL COUNCIL

    Ms. Kitcheyan. Thank you, Senator.
    Chairman McCain, Vice Chairman Dorgan and distinguished 
members of the committee. Thank you for inviting the National 
Indian Health Board to testify on the President's 2007 budget 
recommendations for American Indians and Alaska Native Health 
Care.
    Mr. Chairman, Vice Chairman Dorgan, thank you for your 
leadership in the move to reauthorize the Indian Health Care 
Improvement Act. It has been 14 years since it has been 
updated, and we need to achieve this. NIHB and Indian country 
stand with you and will work together with you to achieve it.
    The President's budget request for fiscal year 2007 
proposes an increase of about 4 percent for IHS. We know these 
are difficult budget times in America and know it is not easy 
to find the increase, but Mr. Chairman, that does not quite 
amount to status quo and we cannot continue at less than status 
quo for Indian people.
    Status quo is a life 6 years shorter than any other 
American group, being 318 percent more likely to die from 
diabetes, and 670 percent more likely to die from alcoholism. 
It is 63 babies born in my tribe last year addicted to crystal 
meth. And this is just one tribe. Imagine the rest. Nationally, 
Indian country is under attack from crystal meth and we must 
aggressively address this starting in this budget cycle.
    Furthermore, it is 120 suicide attempts and 84 actual 
suicides since 2002 in my tribe alone. Nationally, it is that 
our youth are twice as likely to commit suicide and nearly 75 
percent of all suicide acts in Indian country involve alcohol. 
I would like to acknowledge you, Senator Dorgan, for your 
efforts on this issue.
    We request a financial and policy commitment from Congress 
to help America's native people begin to achieve true progress 
in changing the reality of inferior health care known to us. A 
10-percent increase over current funding levels would be 
evidence of that commitment. We will be working with Congress 
during this appropriations cycle to increase funding for IHS by 
10 percent over fiscal year 2006 appropriated levels. The 
budget request meets about 60 percent of documented need, and 
10 percent is a modest increase.
    We request $200 million for the Well-Indian Nations 
Initiative to undertake disease prevention and health promotion 
activities in Indian country. This includes mental health 
services and outreach programs. We request $90 million over the 
current request in order to assure that contract support costs 
obligations will be met. According to IHS figures, an 
additional $60 million will be needed to reach this year's 
contractual commitments.
    We request the end of the 1-year pause of 2006. The 
President's 2007 budget cuts another $20 million from the 
health facilities construction program. This is in addition to 
the $85.2 million cut for 2006 that nearly ended the program 
and was called a 1-year pause. That funding year is over. Let's 
end this pause and provide $88.5 million to the facilities 
programs.
    As Senator McCain knows, in Arizona we have projects on the 
priority list at Red Mesa, Kayenta, and San Carlos, and it is 
imperative that we complete these projects. Senator Murkowski 
also mentioned that for Barrow and Nome, AK.
    Finally, we strongly support the continuation of Urban 
Indian Health Programs and request a funding increase for them. 
HHS needs to have tribal consultation before any policy 
decisions are made to close the urban Indian clinics. This is 
consistent with current consultation practice and policy. 
According to the last census, more than one-half of American 
Indians live in urban areas. Tens of thousands are getting 
their health care through urban clinics.
    The Government assumption that American Indians and Alaska 
Natives will seek health care from community health centers is 
based on nothing. There are no studies, no facts and no 
information. You don't know what is going to happen to these 
people. We think that they will return to their reservations or 
communities to seek health care, but there is no funding 
request for the tribes to care for them. We must have tribal 
consultation before this is even considered.
    In the richest, most powerful country in the world, a 
country whose very foundation quite literally sits on American 
Indian homeland that was largely traded for guarantees of peace 
and health care, among other things, we can do better. We must. 
Our Indian people need hope. Funding will bring us hope, a 
chance at life, a healthy life.
    Mr. Chairman, there is so much more that should be 
discussed here. I have tried to highlight the most critical 
areas and I also request that my written comments be added into 
the record.
    Thank you and God bless you.
    [Prepared statement of Ms. Kitcheyan appears in appendix.]
    The Chairman. Thank you. Without objection, your full 
statement will be part of the record.
    Mr. Wilson, welcome.

STATEMENT OF RYAN WILSON, PRESIDENT, NATIONAL INDIAN EDUCATION 
                          ASSOCIATION

    Mr. Wilson. Chairman McCain, Vice Chairman Dorgan, Senator 
Akaka, members of the Senate Committee on Indian Affairs, we 
thank you for this opportunity to submit testimony on behalf of 
the National Indian Education Association with regard to the 
President's fiscal year 2007 budget request.
    I also would like to summarize my written testimony and ask 
that be submitted into the record.
    Indian education programs are constantly funded at the 
minimum level established by Congress, never the maximum level. 
The Federal Government has not upheld its legal or moral 
obligation to provide sufficient funding for the education of 
Native American students. President Bush's budget proposes a 
$3.1-billion or 5.5-percent decrease for education spending, 
leaving $54 billion in total discretionary appropriations for 
the Department of Education. This is the first decrease in 
education spending since 1994.
    Within the Department of Education budget, none of the 
programs specifically for Native American students received an 
increase. Rather, the majority of the programs of the native 
students received level funding from fiscal year 2006. This 
results in a de facto decrease when factored into the rate of 
inflation. Inadequately funding native education programs will 
diminish, if not undo, the progress that has been made.
    Chairman McCain and Vice Chairman Dorgan and other members 
of the committee, I want to call your attention to the charts 
that the National Indian Education Association brought here. We 
wish to dramatize what inflation does actually when level 
funding happens. As you heard from the first panel, they 
actually expressed that we were successful with our budget 
because it was flat-funded or level-funded. That is absolutely 
incorrect. We are receiving brutal decreases here when the 
cumulative effect is over the course of the last several years.
    One chart shows from 2003 to 2005, that is the total Indian 
education funding in both the BIA, the Department of Education 
and HHS.
    I would also like to call your attention to the BIA 
construction funding. You heard from Assistant Secretary Cason 
about the progress that has been made in BIA education funding. 
We respectfully disagree. The backlog is becoming a first-class 
crisis and again our young people are attending second-class 
schools at rates that it should never happen here in America.
    The President on his web page showcased the Santa Fe Indian 
School as a model for the BIA school construction. We would 
like to challenge that every Indian child in America should go 
to such a school, with beautiful architecture and beautiful 
state-of-the-art facilities like that. So we would like those 
charts to be witnessed by you. We thank you for that.
    Native American language funding, you heard from the 
President of the National Congress of American Indians that 
this is a priority. Through a survey done by the National 
Indian Education Association and Dr. William Demmer, we have 
established that there are only 20 Indian languages that are 
spoken by Indian children throughout America. We have roughly 
100 surviving languages now out of more than 300 that were here 
at the beginning of contact. Simple math tells us that by the 
year 2050, that is what we will be down to is those 20 
languages. We are prioritizing this and NIEA requests that $6 
million be increased into the fiscal year 2007 for the 
Administration to support: No. 1, existing Native American 
immersion schools and programs through a competitive grant 
process; and No. 2, the development effort for new immersion 
schools and programs through the competitive grant process.
    We also ask for $400,000 to enable NIEA to have data 
collection and a study to perform the effectiveness of Native 
American immersion schools. In fiscal year 2004, 2005, and 
2006, ANA received $44 million, but less than $4 million went 
to actual Native American language programs, and out of that 
less than 10 percent went to actual cultivation of Native 
American languages.
    We also strongly support the legislation introduced by 
Senator Inouye in the 108th Congress, S. 575, that strengthens 
the current Native American Language Act and looks forward to 
reintroduction of this legislation.
    Again, I touched on school construction. NIEA requests a 
$56-million increase from the fiscal year 2006 enacted level of 
$206 million for a total of $263 million. The fiscal year 2007 
budget request for school construction and repair is only $157 
million, while the fiscal year 2006 enacted level funding for 
BIA school construction and repair was $206 million.
    Despite the President's budget request for fiscal year 2006 
to significantly reduce this funding in fiscal year 2007, the 
enacted funding level was $263 million, which was instrumental 
in reducing the construction and repair backlog. As you can see 
from the inflation charts, if we take care of this now, it will 
save us literally millions and millions of dollars later.
    As you have heard from all of the panelists, we, too, care 
about Johnson O'Malley. April 16, 1934, this was really the 
first fundamental and significant commitment from Congress to 
fund Indian education. So this act has historical implications. 
NIEA at our legislative summit heard yesterday from an official 
from the Department of Education, Office of Indian Education, 
that it does not duplicate services of title VII or title I. So 
we, too, recommend full funding of JOM and actually an 
increase, which would bring it to $17.2 million.
    Moving into title VII funding, due to the tight Federal 
budget for this year, NIEA requests a moderate 5-percent 
increase to $9.3 million, for a total of $195 million in fiscal 
year 2007 for NCLB title VII funding for American Indian, 
Native Hawaiian, and Alaska Native education.
    We would also like to talk a little bit about the 
President's 2007 budget request for Indian education, Alaska 
Native Education equity, which calls for level funding, and a 
request for education of Native Hawaiians is reduced by 8 
percent. We oppose this. Despite the fact that NIEA and native 
educators have been asking for 5 percent increases in all 
native education program funding, Indian education program 
funding remains the same level as fiscal year 2006 at $118 
million, and down from fiscal year 2005 and 2004 and 2003 
despite our increased needs.
    So the needs of Indian country are increasing, and the 
resources that are being allocated to us are decreasing. This 
is a fundamental concern to Indian country and the National 
Indian Education Association.
    Mr. Chairman, I also respectfully seek permission to submit 
the National Indian Education Association legislative summit 
packet to this committee, as a matter of the Congressional 
Record, and we will be available for questions as well.
    [Prepared statement of Mr. Wilson appears in appendix.]
    The Chairman. Thank you, Mr. Wilson. Without objection, 
that study will be made part of the record.
    Ms. Parish, welcome.

    STATEMENT OF CHERYL PARISH, SECRETARY AND BOARD MEMBER, 
 NATIONAL AMERICAN INDIAN HOUSING COUNCIL, ACCOMPANIED BY GARY 
                   GORDON, EXECUTIVE DIRECTOR

    Ms. Parish. Thank you.
    Good afternoon, Chairman McCain, Vice Chairman Dorgan, 
members of the committee. My name is Cheryl Parish. I am 
pleased to appear before you today as Secretary of the National 
American Indian Housing Council.
    On behalf of NIHC, its membership, and board of directors, 
I would like to thank you for this opportunity to address you 
today on the President's budget request for fiscal year 2007 as 
it relates to Indian housing and housing-related community 
development.
    First, though, I want to express our gratitude to you and 
your capable staff for your committee's longstanding support 
for our efforts to provide safe, decent and affordable housing 
for native people.
    Mr. Chairman, this committee does need to be reminded of 
the dire economic and social conditions on Indian reservations 
and native communities in Alaska and Hawaii. It seems that 
others in Congress and elsewhere do not have a firm grasp on 
the situation. Accordingly, I will reiterate that Native 
Americans are three times more likely to live in overcrowded 
housing than any other Americans. Native Americans are more 
likely to lack basic sewage and water systems, telephone lines, 
and electricity than any other American.
    I challenge our friends in the press who have a never-
ending appetite to write about gaming and Indian-rich tribes, 
to go and visit the poor, the rural tribes of the Great Plains, 
the great Navajo Nation, and the remote native villages in bush 
Alaska, to see that in 2006 poverty still has an Indian face.
    In the 2007 budget request, the President seeks $625.7 
million for our NAHASDA block grant program. In addition, 
unlike the fiscal year 2006 request, the President proposes to 
preserve our ICDBG in a larger community development fund and 
seeks to fund it with $57.4 million. Taken together, level 
funding or a funding level that is slightly less than the 
previous year's amount, coupled with inflation and a strong and 
growing demand for housing in the native community, means that 
fewer homes will be built using Federal funds.
    Since the enactment of NAHASDA in 1996, this committee has 
continually shown unwavering support for tribal housing 
programs and the people that they serve. While money is not the 
answer to all problems, building houses and related 
infrastructure is one area that is dependent on ample funding. 
To meet the current housing and infrastructure demands, NIHC 
estimates that $1.1 billion per year in funding is needed for 
the block grant program. A reasonable start for fiscal year 
2007 would be $748 million, and the budget request proposes 
$625.7 million, resulting in a 1-year funding gap of over $122 
million.
    In addition to the funding levels, the National American 
Indian Housing Council is alarmed that the language changing 
the housing funding allocation formula is included in the 2007 
budget request. The language was included without tribal 
consultation and over the strong objection of the National 
American Indian Housing Council. In the final fiscal year 2006 
appropriation, it was inserted in there. The language deals 
with the need portion for housing funding a calculated by the 
Department of Housing and Urban Development, and it requires 
interpretation by HUD of the responses to tribal members in the 
2000 decennial census in calculating the tribe's relative need 
portion for housing assistance.
    The National American Indian Housing Council has constantly 
taken the position that this matter is properly one for the 
authorizing committees of the Congress, tribes and HUD. NIHC 
urges the Committee to wrest control of this matter from the 
appropriators and pledges our support for discussions on these 
matters with this committee and its sister committees.
    NIHC is not solely interested in Federal grants to build 
Indian homes. We see a future in providing homes for ourselves 
in the same manner that all citizens of this country help 
themselves to purchase homes through the use of mortgage 
financing, including Title VI and 184. We are encouraged to see 
that the President has remained committed to both of these loan 
programs through level funding of Title VI and the tripling of 
the 184 program.
    CDBG is also important for tribes in developing physical 
infrastructure and related economic opportunities. We also 
believe that it should be funded at least at the inflation-
adjusted level of $77 million and to be kept as a separate 
account.
    The President has again proposed reducing the technical 
assistance funding in NAHASDA 2007, by eliminating both the 
NAHBG set-aside and the Indian community development set-aside. 
Our technical assistance programs through the National American 
Indian Housing Council are a very important part to our Indian 
housing programs. What we have done with these in 2005, we have 
done over 246 site visits. We have offered 38 free training 
classes. We offer cutting-edge training programs.
    The one very highly participated and needed basically is 
the training on the methamphetamine problem, which is plaguing 
tribal housing programs. We have expanded our home buyer 
education programs and provided over 751 scholarships to 220 
tribes, totaling over $807,000.
    We conduct one major research project annually and our 
prior research focused on infrastructure. The infrastructure 
study led to the creation of a task group including multiple 
Federal agencies and resulted in an MOU currently in the 
signature phase under the agencies to improve cooperation and 
coordination with the development of Indian country 
infrastructure.
    We believe that our track record of success and our promise 
in assisting tribes in the future warrants funding of $5 
million in 2007 for technical assistance, but only if NAHASDA 
and ICDG programs are fully funded.
    I would like to thank you again for your longstanding 
support. We look forward to working with you in the next 
congressional session.
    [Prepared statement of Ms. Parish appears in appendix.]
    The Chairman. Thank you very much.
    Mr. Edwards, welcome.

 STATEMENT OF GARY EDWARDS, CHIEF EXECUTIVE OFFICER, NATIONAL 
                NATIVE AMERICAN LAW ENFORCEMENT 
                          ASSOCIATION

    Mr. Edwards. Thank you, sir.
    Mr. Chairman, Mr. Vice Chairman, distinguished members of 
the committee, tribal leaders and tribal elders, it is an honor 
for me to be here today and speak to you regarding the 
President's 2007 proposed budget for Indian programs. I am the 
chief executive officer of the National Native American Law 
Enforcement Association. We have been in existence since 1993. 
Our membership is made up of men and women, Indian and non-
Indian, law enforcement and non-law enforcement, because we 
believe that everyone within a community needs a voice to have 
a good law enforcement experience in any community.
    We are a public service organization focused primarily on 
public safety. As we look at the President's 2007 budget, a 
maxim comes to mind from President Abraham Lincoln, which is 
worthy of consideration. He said, ``I walk slowly, but I never 
walk backward.'' Historically, American Indians have been made 
to walk slowly in their pursuit of equality in public safety, 
health care, detention, education and so forth. With each step, 
and as by the wisdom of President Lincoln, progress has been 
achieved, although much progress is still needed.
    NNALEA is concerned that the President's fiscal 2007 budget 
request for Indian programs, if approved in its current form, 
may result in regression of progress with regard to American 
Indian public safety, health, education, self-governance and 
self-determination.
    For the remainder of my comments, I will speak with regard 
to public safety issues in Indian country.
    The most pressing Indian country public safety issues of 
today are the loss of the COPS grants. It is a crisis in Indian 
country. From 1999 until the present, approximately 1,800 new 
law enforcement jobs have been created in Indian country. 
Between the years of 2004 and 2006, approximately 759 of those 
officer grants have expired. This is a devastating reduction to 
an already limited number of tribal law enforcement officers in 
Indian country.
    It is also a devastating effect on our national economy. 
The United States has invested capital in developing Indian 
country law enforcement. We have worked hard to integrate 
people within the Indian community that represents the 
community while enforcing the local laws and the national laws 
as well. As we look at this investment, the average investment 
per officer amounts to $100,000 for 3 years in the placement of 
the officer, his equipment, training and technical assistance.
    By way of example, the Pine Ridge Reservation currently has 
86 sworn tribal law enforcement officers. It serves 41,000 
residents on 2.1 million acres of land. The Pine Ridge ratio of 
officer to resident is approximately two for 1,000 residents, 
and one officer for 24,400 acres of land. On March 31, 2006, 
the Pine Ridge Police Department is poised to lose 59 of their 
86 police officers due to sunsetting COPS grants. That will 
reduce their service to the resident officer population to one 
in 1,000, and their coverage of 77,700 acres per officer.
    This will also represent a $5.9 million loss in invested 
capital by the U.S. Government in providing law enforcement 
services to this particular reservation. Pine Ridge officers, 
the 59, the economy does not present opportunities for them to 
be able to take their families and have other jobs on that 
reservation, so probably they will have to leave that 
reservation in pursuit of their law enforcement careers. This 
is not an isolated example of the situation that we currently 
face in Indian country law enforcement.
    Commendably, the President's 2007 budget request for Indian 
programs increases the BIA budget by $4.5 million. But that 
amount is not enough to maintain the current law enforcement 
activity on a daily basis in Indian country when you compare it 
to the 759 law enforcement officers that are missing from 
working in these crime areas where it is the most dangerous job 
in law enforcement.
    There needs to be a 2007 budget line item that provides an 
additional $15 million either to the Department of Justice COPS 
grant program or to the BIA Office of Law Enforcement Service 
to help sustain these losses of law enforcement personnel on 
tribal reservations.
    A new formula with a quality-of-life index needs to be 
developed for calculating Indian country public safety staffing 
levels which sets a baseline for minimum tribal law enforcement 
staffing levels for each tribal community. Funding should be 
based upon this formula.
    The second major problem facing Indian country law 
enforcement today in public safety is the rise of 
methamphetamine abuse and violent crime in Indian country. 
Indian communities continue to be decimated by illegal drugs 
and alcohol abuse. Statistics suggest that approximately 85 
percent to 90 percent of crime in Indian country derives from 
some form of illegal substance or alcohol abuse.
    As with many non-tribal communities, tribal law enforcement 
officials have noted the growing trend of drug abuse in Indian 
communities is connected to methamphetamine. A prime example of 
this was made apparent by the United States Attorney for the 
District of Arizona in his press release of August 30, 2005. He 
said:

    While methamphetamine use and distribution is not unique to 
Indian country, the use of methamphetamine within the Indian 
communities of Arizona has had a profound effect. A large 
percentage of violent crimes prosecuted by the U.S. Attorney's 
office involved individuals under the influence of 
methamphetamine or other illegal substances. It is our sincere 
hope and belief that reducing the availability of 
methamphetamine within these communities will also bring a 
reduction in the number of violent crimes. It is a fight that 
we simply cannot afford to lose.

    And I certainly echo what he said. It is a fight that we 
cannot afford to lose.
    Add to that increased gang activities, which are rampant in 
many tribal communities, and it makes a little more clear 
picture of what devastation the loss of these law enforcement 
officers working in tribal communities is going to have with 
regard to the safety and security of our citizens.
    Commendably, the President's 2007 budget designates the HHS 
to have $25 million in funding for a methamphetamine 
initiative. I hope Indian country is included within that 
initiative.
    The third area of major concern in Indian country public 
safety is detention in Indian country. A 1997 report by the 
Department of the Interior and by the Department of Justice 
laid out the needs for funding to improve detention in Indian 
country, so this is not new. This is not something that just 
came on the scene. They said that you needed funding for 
operations, this is back in 1997, including staff, equipment, 
supplies, facilities including maintenance and renovation and 
new construction, inspection and oversight, training and 
technical assistance. Most of the jails in Indian country are 
old and unsafe. And 80 percent of funding needed for jails has 
to go to staffing of those people needed to operate and run 
those jails efficiently and effectively.
    Our worst fears were brought to light when the Department 
of the Interior's Inspector General wrote the report, Neither 
Safe Nor Secure. Today, we look at the 2007 budget proposal for 
Indian country and we see that $8.6 million in DOJ Indian 
country prison grants were done away with, while DOI commits 
$8.1 million for four major facilities improvements and repair 
projects, and several smaller projects.
    Currently, this last year we have closed four Indian 
detention facilities. We anticipate closing a fifth one within 
the very near future. If we are going to build four and we have 
already closed five, we are way behind the game. I suggest that 
this $8.6 million for DOJ grants for tribal detention 
facilities be reincluded in the budget for DOJ.
    The last major concern currently on people's minds in 
Indian country is tribal homeland security. The foundation of 
homeland security is quality community law enforcement and 
effective, efficient, timely emergency services in the time of 
a crisis.
    To have that foundation built for homeland security, you 
need to basically have four capabilities available. You need to 
have an operational emergency plan in place that is compliant 
and compatible with Federal, tribal, State, and local homeland 
security plans.
    You need to possess the human, cyber, physical resources 
necessary to carryout the mission of law enforcement emergency 
service professionals during a crisis, according to the 
respective emergency plans.
    And you must possess interoperable communications and you 
must possess the capability to share intelligence and 
information up and down the national intelligence networks.
    Some tribes may possess a few of these basic four homeland 
security foundation principles and capabilities, but most do 
not. NNALEA advocates direct funding to tribes from all Federal 
departments. The Department of Homeland Security currently 
directs all funding through States. There are some notable 
examples of States and tribes working together to utilize 
homeland security dollars to build tribal communities' and 
contiguous local counties' homeland security preparedness even 
across multi-State lines.
    For the President's 2007 budget, we suggest that $250,000 
be set aside for every State that has a tribe or Indian nation 
within that State to help them with regard to homeland security 
planning grants, because planning is the first phase of 
developing these four capabilities necessary.
    In conclusion, a public safety crisis exists in Indian 
communities with regard to the loss of law enforcement officers 
and resources in Indian country, the rise of methamphetamine 
abuse and violent crime in Indian country, the timeliness of 
tribal detention improvements, and tribal inclusion in the 
homeland security funding initiatives.
    Although NNALEA understands the difficult choices that must 
be made with regard to the fiscal year 2007 budget, NNALEA 
respectfully requests that Native Americans not be made to walk 
backward with regard to public safety. In the words of the 
great Sioux Chief Sitting Bull, ``Let us put our minds together 
and see what kind of future we can build for our children.''
    I am happy to answer any questions you may have.
    [Prepared statement of Mr. Edwards appears in appendix.]
    The Chairman. Thank you very much.
    President Garcia, why do you want such a big increase in 
the BIA budget for Indian forests and forest management?
    Mr. Garcia. Thank you for the question, Senator. It is 
important to realize that there is not an equal funding for 
Indian forest lands compared to U.S. forest lands. It is 
important to understand also that as the Indian nations are 
emerging and are developing in their management, if the funds 
are not available to have an adequate infrastructure for 
management in place, then devastation may occur because of that 
ill-preparedness. So the funds are provided to help with 
developing the infrastructure and developing the management 
systems, it is imperative that the funding be there.
    The Chairman. And with the drought that we are now back 
into in the Southwest, this could really be something. As you 
know in Arizona, we have already started the forest fires.
    Mr. Garcia. It is the same up in the Northwest and out 
through Alaska, that if we don't control the forest lands, and 
keep them in tune with as far as dealing with Mother Nature, we 
will see devastation. Also, there are forest units firefighting 
units that have been cut out of the picture. There is not a 
mention of that in the testimony, but that is the case 
throughout Indian country.
    The Chairman. Ms. Kitcheyan, the budget request proposes to 
de-fund the Urban Indian Health Program. Did the department 
discuss this proposal with the tribes during your annual 
consultations?
    Ms. Kitcheyan. Sir, I was at a Phoenix-area meeting in Las 
Vegas and there were a couple of representatives from the urban 
health clinics, and they said that there was no consultation.
    The Chairman. None?
    Ms. Kitcheyan. None.
    The Chairman. So in an urban area like Phoenix, AZ or 
Albuquerque, NM or other States, maybe Denver, CO, this is 
huge, isn't it?
    Ms. Kitcheyan. Yes; absolutely. It is very huge. If we lose 
them, it will be very detrimental for those people that live in 
the cities. You know, they flock to the cities for employment 
and education and that was a policy of the Federal Government 
which was to assimilate them. That is kind of what they are 
doing.
    The Chairman. Well, I think it is also interesting that I 
don't believe there was a commensurate increase in funding for 
community health centers.
    Ms. Kitcheyan. That is true, sir.
    The Chairman. Thank you.
    I think it is one of those, as I mentioned in my opening 
statement, that a proposed cut in programs that they know that 
Congress will restore the funding for, at least I hope that is 
the case here.
    Mr. Wilson, elimination of Johnson O'Malley, you say that 
Johnson O'Malley does not duplicate other programs. The 
Department of the Interior has expressed concerns that the 
program does not have a focused goal for academic achievement. 
How does the Johnson O'Malley Program directly relate to 
academic achievement?
    Mr. Wilson. Well, as I said, chairman, we respectfully 
disagree with the BIA' justification. I think the House of 
Representatives also agreed with us as they submitted in their 
report. They did not interpret that in the same way as the 
White House did last year when it was zeroed out. This 
historical context of JOM is very important to Indian country.
    As I said, this act happened in 1934. When we seek 
scientific data to say how many young people have stayed in 
school for that or what was their academic progress, it is a 
difficult situation because there has never been funding to 
actually study that. What we are saying as tribes and as 
advocates for tribal opinions, is that they have identified 
this as a major concern. Our constituency, you know, they 
really value this particular program. I think to put a human 
face on it, I wonder sometimes because it is so flexible in its 
use, and it was designed originally for the educational, the 
medical relief of distress, and also the social welfare of 
Indians, it is hard to pinpoint that.
    I wonder, would someone like Billy Mills have tennis shoes 
without JOM back then? We just had a beautiful young girl 
graduate from Red Cloud School in Pine Ridge named Joelle 
Janis, who became a Gates Millennia Scholar. I wonder how do 
you quantify that support from JOM that helped her in her life 
and where she is going on into higher education. There are 
thousands and thousands of young people like that that have 
been affected by JOM.
    So I just respectfully answer your question that way.
    The Chairman. Do me a favor, will you, and give me a 
written statement about the benefits and the focus of Johnson 
O'Malley.
    Mr. Wilson. Absolutely.
    The Chairman. I would appreciate it. Thank you very much.
    Mr. Wilson. Thank you.
    The Chairman. Ms. Parish, I understand there is billions of 
dollars of backlog in the requirement for sanitation 
infrastructure needs in Indian homes. How big is that, would 
you estimate?
    Ms. Parish. $1.9 billion, minimum.
    The Chairman. $1.9 billion. And how would you go about 
addressing this issue, besides appropriating $1.9 billion?
    Ms. Parish. Excuse me for 1 second, sir.
    If you wouldn't mind, sir, this is my director right here.
    The Chairman. Go ahead.
    Ms. Parish. He is working also with Mr. Hartz.
    The Chairman. Just identify yourself, sir.
    Mr. Gordon. Yes, sir; my name is Gary Gordon. I am the 
executive director of the National American Indian Housing 
Council.
    A couple of years ago, we did a research study. One of our 
annual projects under our NAHASDA funding is to conduct major 
research on an item affecting housing in Indian country. We 
focused on infrastructure and the need for infrastructure and 
the problems with developing the infrastructure. Part of the 
outcome of that was the development or the reestablishment of a 
task group which was a multi-Federal agency, multi-tribal task 
group, to identify the problems and how to correct those 
problems.
    There is a MOU, memorandum of understanding, that has been 
developed and has been circulated among the agencies to work 
together for that purpose to identify how we can better utilize 
the dollars that are available, how we can identify additional 
sources of funding, and how we can streamline the process so 
that we can indeed build more infrastructure in Indian country 
so that we can put more housing out there. And not only 
housing, too, but other economic development which will support 
the housing, sir.
    The Chairman. Would you send that to the committee so that 
we can have the benefit of that study?
    Mr. Gordon. Yes, sir; we will.
    The Chairman. Thank you very much.
    Thank you, Ms. Parish.
    Mr. Edwards, talk to me for 1 minute about methamphetamine 
and the seriousness of the crisis in Indian country. What is 
being done and how bad is it getting?
    Mr. Edwards. It is getting worse on an hourly basis, 
primarily. It seemed to come in the Northern Plains and we had 
the largest impact in the Northern Plains area. There have been 
some major cases. There are multi-State cases where people 
actually approached the Indian communities as a business, 
realizing that we had some problems with substance abuse.
    So therefore, they made small amounts of the meth and gave 
it to the kids. To Indian people, it is extremely addictive. 
From that, they married into the families and just started 
conducting a business. That was in Wyoming.
    Then from that investigation, there was like six different 
States involving arrests across a border, and one of the 
brothers who started that particular business-type enterprise 
was sent to prison for life.
    From there, from the Northern Plains, the meth problems in 
Indian country have evolved down to California, then out over 
into Oklahoma and then over into North Carolina. I was shocked 
because I am from the Eastern Band of Cherokee Indians when I 
found out on Friday the 13th of this year that a young girl who 
used to be in the Native American Boys and Girls Club on the 
reservation was found shot dead with her hands tied behind her 
back, with her head blown off. It was a matter relating to 
methamphetamine was the word that everybody is hearing. It was 
a gangland-style murder from possibly a gang out of Mexico.
    A short time before that in the latter part of last year, 
another child from that reservation had all of his fingers cut 
off before they killed him. Again, that was from that same type 
of issue.
    This is something that affects Native American communities 
I think more than any other communities within America. And it 
is not contained on Indian country. It comes usually outside 
the reservations onto the reservations and then splashes back. 
A lot of our tribal leaders, and I try to call and poll a lot 
of different chiefs of police and everything, say that if we 
don't get a grasp on this, it will totally wipe out a 
generation of our children for the future.
    The Chairman. It is fairly easy to tell someone who is an 
addict, isn't it?
    Mr. Edwards. Yes, sir; extremely, because of the effects 
that methamphetamine has on the body. When I was talking to 
some of the people out in the field, we talked about, well, how 
do you know that it is meth, or is it just some other type of 
substance abuse? They said usually it is a combination of the 
two. From the substance abuse, people get to partying and they 
have a good time, and then all of a sudden their body gets 
tired. And so they want to go and rest and sleep. That has been 
the general modus operandi of that. But then someone then will 
introduce meth and say, hey, we don't need to go home; we can 
just take this and you will be feeling good. And they will go 
for days, but their bodies still don't forget all the sleep 
deprivation that they have, and their aging process is 
enormously quick.
    The Chairman. That leads to a lot of child neglect and 
abuse?
    Mr. Edwards. It certainly does. The interesting thing about 
it, too, is that it mostly deals with property crimes. There 
are some violent outbreaks, but usually the violence in Indian 
country as it is associated with this is in combination with 
other types of illegal substances.
    The Chairman. Well, I think, you know, Senator Dorgan has 
been very involved in the teen suicide issue. I don't think it 
is unconnected with some of that. Perhaps we ought to have 
another hearing on it and find out, because as you say, Indian 
country is most vulnerable, but non-Indian country is suffering 
dramatically, particularly in some rural areas as well. So it 
is a great challenge.
    We thank you, Mr. Edwards.
    We thank the panel.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    It is the case and I know it especially in the Northern 
Great Plains that methamphetamine is a devastating scourge on 
the population, and especially young people.
    I think because of the time, I am going to defer asking 
questions, but I did want to make this point. I think having 
folks come to testify here today, tribal officials and experts 
dealing with housing and law enforcement, health care, 
education, is very, very helpful to us. One of the things I 
would suggest, as the chairman has on a couple of occasions, 
you should feel free to send us supplemental information 
because this budget process goes on for a long period here. 
Both from the budget standpoint and the appropriations piece, 
we are talking about some months. I hope that as you evaluate 
your needs and as you see what we are doing here in the 
Congress, you will always feel free to send us supplemental 
information about what you are seeing and what you believe the 
needs are. That is very helpful to us.
    Mr. Garcia, you are the new president of the Congress of 
American Indians. This I believe is perhaps your first time 
testifying since you have become president. We congratulate you 
and look forward to working with your organization.
    I know that Tex Hall has been here. Tex is a two-time 
chairman, way in the back. I saw Tex come in and he has been 
working on these issues as well. He and so many other tribal 
leaders from all across this country have made a contribution 
to the knowledge of this Committee. We just want to thank him, 
and I did want to say hello to Tex Hall.
    I thank all of you for coming. I know you have traveled 
some distance to be with us today, and we appreciate your 
testimony. I think it was outstanding. Thank you very much.
    [Whereupon, at 4:51 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


    Prepared Statement of the National Indian Head Start Directors 
                              Association

    The President has proposed to flat fund the Head Start program at 
the fiscal year 2006 level of approximately $6.8 billion. Of this 
amount, according to law, 13 percent is set-aside for priority 
programs, with Indian Head Start statutorily established in the highest 
priority and typically receiving 2.8 percent of all Head Start funds. 
Unfortunately, and probably illegally, HHS has been diverting large 
portions of the priority set-aside to fund non-priority programs. When 
combined with the effects of inflation, the result of HHS's dubious 
conduct and the flat-funding is to severely limit the ability of the 
Indian Head Start program to serve tribal communities. At most, only 16 
percent of the age-eligible Indian child population is enrolled in 
Indian Head Start. Of the approximately 555 federally recognized 
tribes, only 222 have Head Start programs. Needless to say, for the 333 
that do not, 0 percent of the eligible children are served by Indian 
Head Start.
    According to an analysis done by the National Head Start 
Association, the President's proposal would likely result in the 
equivalent of closing enrollment to at least 19,000 children 
nationwide. For Indian country, this would mean a loss of 499 slots in 
a program that now serves approximately 23,374 children. The 
President's proposal, if enacted, means that since fiscal year 2002 
Head Start would have experienced an 11-percent real cut in Federal 
funding.
    For several years, the National Indian Head Start Directors 
Association has been working to increase the size of the Indian Head 
Start set aside. The Senate Health, Education, Labor and Pensions 
Committee has marked up Head Start reauthorization legislation which 
would increase the Indian Head Start set aside to 4 percent. The House 
has passed legislation which would increase the set-aside to 3.5 
percent.
    Since the Indian Head Start set-aside is currently set 
administratively by the Department of Health and Human Services, NIHSDA 
asked HHS if it would follow the lead of the Congress and increase 
funding to the Indian Head Start program. HHS responded that it would 
not do so. It turns out that HHS has, for a number of years, 
inappropriately and probably illegally transferred 3 percent of the 
Congressionally mandated 13 percent set aside that funds Indian Head 
Start and other priority programs to non-priority programs.
    The Head Start Act provides that 13 percent of Head Start funding 
is to be set aside for five priorities, which are set forth in order of 
their priority. The first, and therefore highest priority is funding 
for Indian Head Start and certain other programs. The next to last 
priority is for discretionary payments made by the Secretary of HHS (of 
which the law provides two examples of such payments, both minor in 
nature). Pursuant to this lower priority, HHS has for several years 
transferred nearly 3 of the 13 percent back to regular Head Start 
programs.
    HHS has effectively reduced the 13 percent set aside to something 
around 10 percent. To do this, HHS would have had to make a cut in the 
other four priorities funded by the set-aside. On a pro rata basis, 
Indian Head Start should have been funded at approximately 3.7 percent 
and not the level established by HHS at approximately 2.9 percent. This 
means that HHS has reduced Indian Head Start funding by about $50 
million per year.
    There are solid policy reasons for boosting the Indian Head Start 
set aside including:
    Indian reservations suffer from depression-era economics, with 
terrible crime and health statistics to match.
    The Indian reservation poverty rate is 31.2 percent, nearly 3 times 
the national average of 11.6 percent. As much as an additional 30 
percent of the Indian reservation population is only just above the 
poverty line.
    The Indian reservation unemployment rate is approximately 50 
percent, 10 times the national unemployment rate of 5.2 percent (and on 
some reservations the rate is 80-90 percent).
    Most Indian communities are remotely located and there are no other 
resources besides Head Start to address the special needs of young 
Indian children who daily must deal with the conditions described 
above.
    Because of these awful conditions:
    The high-school dropout rate on reservations is more than 3 times 
the national average; The Indian suicide rate is four times greater 
than the national average; One in four Indians is an alcoholic by the 
age of 17. The rate of child abuse or neglect for American Indian or 
Alaska Natives is twice the rate for the White population. Native 
American women suffer violent crime at a rate 3\1/2\ times greater than 
the national average (USDOJ Report). The violent crime rate on some 
reservations is six times the national average.
    These conditions are toxic to Native children. Indian Head Start is 
the best Federal program in place that actually addresses the dire 
situation in much of Indian country, but more resources are needed.
    The Federal Government has a trust responsibility to Indian 
Peoples, especially in the education area. In 2004, President Bush 
signed an executive order on American Indian and Alaska Native 
Education [E.O. 13336], which specifically recognized that ``The United 
States has a unique legal relationship with Indian tribes....'' The 
order was promulgated in part ``to recognize the unique educational and 
culturally related academic needs of American Indian and Alaska Native 
students...'' President Bush's praise-worthy Indian education policy is 
in sharp contrast to the policy the Federal Government followed for 
years summarized by Captain Pratt, a leader in the establishment of 
Indian boarding schools: ``A great general has said that the only good 
Indian is a dead one, and that high sanction of his destruction has 
been an enormous factor in promoting Indian massacres. In a sense, I 
agree with the sentiment, but only in this: that all the Indian there 
is in the race should be dead. Kill the Indian in him, and save the 
man. ``This Federal effort to kill our minds and our spirits failed, 
but not without first doing great damage. Much of the harm inflicted 
upon Native peoples is being undone, to the extent it can be undone, by 
Native people themselves. And yet the resources needed to complete this 
great task can only be found with the originator of the harm--the 
Federal Government.
    Both branches of Congress have determined that HHS funding of 
Indian Head Start is too low. After extensive review, and site visits, 
both branches of Congress have concluded, as described above, that 
Indian Head Start should receive more funding than is currently being 
allocated by HHS.
    NIHSDA urges the Senate Committee on Indian Affairs to endorse:
    An increase in the Indian Head Start set-aside to 4 percent;
    A direction to the Department of Health and Human Services to cease 
its inappropriate, and probably illegal practice, of transferring large 
amounts out of the set-aside that funds Indian Head Start and other 
priority programs in order to fund non-priority programs; and
    An increase in overall funding for Head Start by 3.4 percent or 
higher in order to keep pace with the actual rate of inflation.
    Over the last 40 years, Indian Head Start has played a major role 
in the education of Indian children and in the efforts by tribes to 
heal from the wounds of the past. The results achieved by the Indian 
Head Start program are truly miraculous, notwithstanding all the 
hardships that remain in the Indian community. More than any other 
Federal program, the investment in Indian Head Start is an investment 
in the future of Indian people. Please support this extraordinary 
program. Thank you.
                                 ______
                                 

   Prepared Statement of Charles W. Grim, D.D.S, M.H.S.A., Assistant 
Surgeon General, Director, Indian Health Service, Department of Health 
                           and Human Services

    Mr. Chairman and members of the committee:
    Good Afternoon. I am Dr. Charles W. Grim, Director of the Indian 
Health Service. Today I am accompanied by Mr. Robert McSwain, Deputy 
Director of the IHS, Dr. Craig Vanderwagen, Acting Chief Medical 
Officer, and Mr. Gary Hartz, Director, Environmental Health and 
Engineering. We are pleased to have the opportunity to testify on the 
President's fiscal year 2007 budget request for the Indian Health 
Service.
    As part of the Federal Government's special relationship with 
tribes, the IHS delivers health services to more than 1.9 million 
American Indians and Alaska Natives. Individual and public health 
services are provided in more than 600 health care facilities located 
primarily in some of the most remote regions of the United States. For 
all of the American Indians and Alaska Natives served by these 
programs, the IHS is committed to its mission to raise their physical, 
mental, social, and spiritual health to the highest level, in 
partnership with them.
    This mission is supported by the Department of Health and Human 
Services [HHS] and the IHS budget request reflects that support. To 
better understand the conditions in Indian country, senior Department 
and IHS officials have visited tribal leaders and Indian reservations 
in all 12 IHS areas. In addition, I have the pleasure of serving as the 
vice chair of the Intradepartmental Council on Native American Affairs 
[ICNAA] whose role is to assure coordination across HHS in support of 
American Indian, Alaska Native, and Native American health and human 
services issues. The Administration takes seriously its commitment to 
honor the unique legal relationship with, and responsibility to, 
eligible American Indians and Alaska Natives by providing effective 
health care services.
    Through the Government's longstanding support of Indian health 
care, the IHS, in partnership with the people we serve, have 
demonstrated the ability to effectively utilize available resources to 
improve the health status of American Indians and Alaska Natives. The 
clearest example of this is the drop in mortality rates over the past 
few decades. More recently, this effectiveness has been demonstrated by 
the programs' success in achieving their annual performance targets as 
well as by the intermediate outcomes of the Special Diabetes Program 
for Indians. IHS programs have received favorable ratings through the 
Office of Management and Budget's Program Assessment Rating Tool 
[PART]. Some programs' PART scores are among the highest in the Federal 
Government.
    Although we are very pleased with these achievements, we recognize 
that there is still progress to be made. American Indian and Alaska 
Native mortality rates for alcoholism, tuberculosis, motor vehicle 
crashes, diabetes, unintentional injuries, homicide, and suicide are 
higher than the mortality rates for other Americans. Many of the health 
problems contributing to these higher mortality rates are behavioral. 
For example, the rate of violence for American Indian and Alaska Native 
youth aged 12-17 is 65 percent greater than the national rate for 
youth.
    The IHS and our stakeholders remain resolved and deeply committed 
to address these disparities. As partners with the IHS in delivering 
needed health care to American Indians and Alaska Natives, these 
stakeholders participate in formulating the budget request and annual 
performance plan. The Department holds annual budget consultation 
sessions, both regionally and nationally, to give Indian tribes 
opportunities to present their budget priorities and recommendations to 
the Department. This year during the budget consultation process tribal 
leaders provided us with what continue to be their top priorities--pay 
costs, increases in the cost of providing health care, and population 
growth. I am pleased to say that this budget, like the budget I 
presented last year, responds to those priorities by including the 
increases necessary to assure that the current level of services for 
American Indians and Alaska Natives is maintained in fiscal year 2007 
and that new services associated with the growing American Indian and 
Alaska Native population are covered.
    The President's budget request for the IHS totals $4.0 billion, a 
net increase of $124.5 million or 3.2 percent above the fiscal year 
2006 enacted level. The request will allow IHS and tribal health 
programs to maintain access to health care by providing $41.4 million 
to fund pay raises for Federal and tribal employees, and $92.7 million 
to cover increases in the cost of delivering health care and to address 
the growing American Indian and Alaska Native population. Staffing and 
operating costs for four newly constructed health centers are also 
included in the amount of $32.2 million. Once they are fully 
operational, these facilities will increase the number of primary care 
provider visits that can be provided at these sites by 81 percent and 
allow the provision of new services such as 24-hour emergency room, 
optometry, physical therapy, and audiology services. The request also 
includes additional funding of $11 million for the IHS costs for 
implementing the HHS Unified Financial Management System. This system 
is being implemented to replace five legacy accounting systems 
currently used across the HHS operating divisions. The UFMS will 
integrate the Department's financial management structure and provide 
HHS leaders with a more timely and coordinated view of critical 
financial management information.
    To target these priority increases, the budget request eliminates 
funding for the Urban Indian Health Programs and reduces funding for 
Health Care Facilities Construction by $20.1 million. Unlike Indian 
people living in isolated rural areas, urban Indians can receive health 
care through a wide variety of Federal, State, and local providers. One 
health care provider available to low-income urban Americans is the 
Health Resources and Services Administration's Health Centers program 
which currently operates in all of the cities served by the Urban 
Health program and in hundreds of other cities where Indian people 
live. The budget requests, $2.0 billion for Health Centers in fiscal 
year 2007, allowing it to serve 1.5 million more urban Americans than 
it served in fiscal year 2004. The request for Health Care Facilities 
Construction is $17.7 million, sufficient to complete the construction 
of the Phoenix Indian Medical Center's Southwest Ambulatory Care 
Center. Since fiscal year 2001, a total of $364 million has been 
provided to complete 12 IHS health facilities. Consistent across HHS, 
no funds are requested in fiscal year 2007 to initiate new 
construction.
    The proposed budget that I have just described provides a continued 
investment in the maintenance and support of the IHS and tribal public 
health system to provide access to high quality medical and preventive 
services as a means of improving health status. It reflects a continued 
Federal commitment to American Indians and Alaska Natives.
    Thank you for this opportunity to present the President's fiscal 
year 2007 budget request for the IHS. We are pleased to answer any 
questions that you may have.

[GRAPHIC] [TIFF OMITTED] T6112.001

[GRAPHIC] [TIFF OMITTED] T6112.002

[GRAPHIC] [TIFF OMITTED] T6112.003

[GRAPHIC] [TIFF OMITTED] T6112.004

[GRAPHIC] [TIFF OMITTED] T6112.005

[GRAPHIC] [TIFF OMITTED] T6112.006

[GRAPHIC] [TIFF OMITTED] T6112.007

[GRAPHIC] [TIFF OMITTED] T6112.008

[GRAPHIC] [TIFF OMITTED] T6112.009

[GRAPHIC] [TIFF OMITTED] T6112.010

[GRAPHIC] [TIFF OMITTED] T6112.011

[GRAPHIC] [TIFF OMITTED] T6112.012

[GRAPHIC] [TIFF OMITTED] T6112.013

[GRAPHIC] [TIFF OMITTED] T6112.014

[GRAPHIC] [TIFF OMITTED] T6112.015

[GRAPHIC] [TIFF OMITTED] T6112.016

[GRAPHIC] [TIFF OMITTED] T6112.017

[GRAPHIC] [TIFF OMITTED] T6112.018

[GRAPHIC] [TIFF OMITTED] T6112.019

[GRAPHIC] [TIFF OMITTED] T6112.020

[GRAPHIC] [TIFF OMITTED] T6112.021

[GRAPHIC] [TIFF OMITTED] T6112.022

[GRAPHIC] [TIFF OMITTED] T6112.023

[GRAPHIC] [TIFF OMITTED] T6112.024

[GRAPHIC] [TIFF OMITTED] T6112.025

[GRAPHIC] [TIFF OMITTED] T6112.026

[GRAPHIC] [TIFF OMITTED] T6112.027

[GRAPHIC] [TIFF OMITTED] T6112.028

[GRAPHIC] [TIFF OMITTED] T6112.029

[GRAPHIC] [TIFF OMITTED] T6112.030

[GRAPHIC] [TIFF OMITTED] T6112.031

[GRAPHIC] [TIFF OMITTED] T6112.032

[GRAPHIC] [TIFF OMITTED] T6112.033

[GRAPHIC] [TIFF OMITTED] T6112.034

[GRAPHIC] [TIFF OMITTED] T6112.035

[GRAPHIC] [TIFF OMITTED] T6112.036

[GRAPHIC] [TIFF OMITTED] T6112.037

[GRAPHIC] [TIFF OMITTED] T6112.038

[GRAPHIC] [TIFF OMITTED] T6112.039

[GRAPHIC] [TIFF OMITTED] T6112.040

[GRAPHIC] [TIFF OMITTED] T6112.041

[GRAPHIC] [TIFF OMITTED] T6112.042

[GRAPHIC] [TIFF OMITTED] T6112.043

[GRAPHIC] [TIFF OMITTED] T6112.044

[GRAPHIC] [TIFF OMITTED] T6112.045

[GRAPHIC] [TIFF OMITTED] T6112.046

[GRAPHIC] [TIFF OMITTED] T6112.047

[GRAPHIC] [TIFF OMITTED] T6112.048

[GRAPHIC] [TIFF OMITTED] T6112.049

[GRAPHIC] [TIFF OMITTED] T6112.050

[GRAPHIC] [TIFF OMITTED] T6112.051

[GRAPHIC] [TIFF OMITTED] T6112.052

[GRAPHIC] [TIFF OMITTED] T6112.053

[GRAPHIC] [TIFF OMITTED] T6112.054

[GRAPHIC] [TIFF OMITTED] T6112.055

[GRAPHIC] [TIFF OMITTED] T6112.056

[GRAPHIC] [TIFF OMITTED] T6112.057

[GRAPHIC] [TIFF OMITTED] T6112.058

[GRAPHIC] [TIFF OMITTED] T6112.059

[GRAPHIC] [TIFF OMITTED] T6112.060

[GRAPHIC] [TIFF OMITTED] T6112.061

[GRAPHIC] [TIFF OMITTED] T6112.062

[GRAPHIC] [TIFF OMITTED] T6112.063

[GRAPHIC] [TIFF OMITTED] T6112.064

[GRAPHIC] [TIFF OMITTED] T6112.065

[GRAPHIC] [TIFF OMITTED] T6112.066

[GRAPHIC] [TIFF OMITTED] T6112.067

[GRAPHIC] [TIFF OMITTED] T6112.068

[GRAPHIC] [TIFF OMITTED] T6112.069

[GRAPHIC] [TIFF OMITTED] T6112.070

[GRAPHIC] [TIFF OMITTED] T6112.071

[GRAPHIC] [TIFF OMITTED] T6112.072

[GRAPHIC] [TIFF OMITTED] T6112.073

[GRAPHIC] [TIFF OMITTED] T6112.074

[GRAPHIC] [TIFF OMITTED] T6112.075

[GRAPHIC] [TIFF OMITTED] T6112.076

[GRAPHIC] [TIFF OMITTED] T6112.077

[GRAPHIC] [TIFF OMITTED] T6112.078

[GRAPHIC] [TIFF OMITTED] T6112.079

[GRAPHIC] [TIFF OMITTED] T6112.080

[GRAPHIC] [TIFF OMITTED] T6112.081

[GRAPHIC] [TIFF OMITTED] T6112.082

[GRAPHIC] [TIFF OMITTED] T6112.083

[GRAPHIC] [TIFF OMITTED] T6112.084

[GRAPHIC] [TIFF OMITTED] T6112.085

[GRAPHIC] [TIFF OMITTED] T6112.086

[GRAPHIC] [TIFF OMITTED] T6112.087

[GRAPHIC] [TIFF OMITTED] T6112.088

[GRAPHIC] [TIFF OMITTED] T6112.089

[GRAPHIC] [TIFF OMITTED] T6112.090

[GRAPHIC] [TIFF OMITTED] T6112.091

[GRAPHIC] [TIFF OMITTED] T6112.092

[GRAPHIC] [TIFF OMITTED] T6112.093

[GRAPHIC] [TIFF OMITTED] T6112.094

[GRAPHIC] [TIFF OMITTED] T6112.095

[GRAPHIC] [TIFF OMITTED] T6112.096

[GRAPHIC] [TIFF OMITTED] T6112.097

[GRAPHIC] [TIFF OMITTED] T6112.098

[GRAPHIC] [TIFF OMITTED] T6112.099

[GRAPHIC] [TIFF OMITTED] T6112.100

[GRAPHIC] [TIFF OMITTED] T6112.101

[GRAPHIC] [TIFF OMITTED] T6112.102

[GRAPHIC] [TIFF OMITTED] T6112.103

[GRAPHIC] [TIFF OMITTED] T6112.104

[GRAPHIC] [TIFF OMITTED] T6112.105

[GRAPHIC] [TIFF OMITTED] T6112.106

[GRAPHIC] [TIFF OMITTED] T6112.107

[GRAPHIC] [TIFF OMITTED] T6112.108

[GRAPHIC] [TIFF OMITTED] T6112.109

[GRAPHIC] [TIFF OMITTED] T6112.110

[GRAPHIC] [TIFF OMITTED] T6112.111

[GRAPHIC] [TIFF OMITTED] T6112.112

[GRAPHIC] [TIFF OMITTED] T6112.113

[GRAPHIC] [TIFF OMITTED] T6112.114

[GRAPHIC] [TIFF OMITTED] T6112.115

[GRAPHIC] [TIFF OMITTED] T6112.116

[GRAPHIC] [TIFF OMITTED] T6112.117

[GRAPHIC] [TIFF OMITTED] T6112.118

[GRAPHIC] [TIFF OMITTED] T6112.119

[GRAPHIC] [TIFF OMITTED] T6112.120

[GRAPHIC] [TIFF OMITTED] T6112.121

[GRAPHIC] [TIFF OMITTED] T6112.122

[GRAPHIC] [TIFF OMITTED] T6112.123

[GRAPHIC] [TIFF OMITTED] T6112.124

[GRAPHIC] [TIFF OMITTED] T6112.125

[GRAPHIC] [TIFF OMITTED] T6112.126

[GRAPHIC] [TIFF OMITTED] T6112.127

[GRAPHIC] [TIFF OMITTED] T6112.128

[GRAPHIC] [TIFF OMITTED] T6112.129

[GRAPHIC] [TIFF OMITTED] T6112.130

[GRAPHIC] [TIFF OMITTED] T6112.131

[GRAPHIC] [TIFF OMITTED] T6112.132

[GRAPHIC] [TIFF OMITTED] T6112.133

[GRAPHIC] [TIFF OMITTED] T6112.134

[GRAPHIC] [TIFF OMITTED] T6112.135

[GRAPHIC] [TIFF OMITTED] T6112.136

[GRAPHIC] [TIFF OMITTED] T6112.137

[GRAPHIC] [TIFF OMITTED] T6112.138

[GRAPHIC] [TIFF OMITTED] T6112.139

[GRAPHIC] [TIFF OMITTED] T6112.140

[GRAPHIC] [TIFF OMITTED] T6112.141

[GRAPHIC] [TIFF OMITTED] T6112.142

[GRAPHIC] [TIFF OMITTED] T6112.143

[GRAPHIC] [TIFF OMITTED] T6112.144

[GRAPHIC] [TIFF OMITTED] T6112.145

[GRAPHIC] [TIFF OMITTED] T6112.146

[GRAPHIC] [TIFF OMITTED] T6112.147

[GRAPHIC] [TIFF OMITTED] T6112.148

[GRAPHIC] [TIFF OMITTED] T6112.149

[GRAPHIC] [TIFF OMITTED] T6112.150

[GRAPHIC] [TIFF OMITTED] T6112.151

[GRAPHIC] [TIFF OMITTED] T6112.152

[GRAPHIC] [TIFF OMITTED] T6112.153

[GRAPHIC] [TIFF OMITTED] T6112.154

[GRAPHIC] [TIFF OMITTED] T6112.155

[GRAPHIC] [TIFF OMITTED] T6112.156

[GRAPHIC] [TIFF OMITTED] T6112.157

[GRAPHIC] [TIFF OMITTED] T6112.158

[GRAPHIC] [TIFF OMITTED] T6112.159

[GRAPHIC] [TIFF OMITTED] T6112.160

[GRAPHIC] [TIFF OMITTED] T6112.161

[GRAPHIC] [TIFF OMITTED] T6112.162

[GRAPHIC] [TIFF OMITTED] T6112.163

[GRAPHIC] [TIFF OMITTED] T6112.164

[GRAPHIC] [TIFF OMITTED] T6112.165

[GRAPHIC] [TIFF OMITTED] T6112.166

[GRAPHIC] [TIFF OMITTED] T6112.167

[GRAPHIC] [TIFF OMITTED] T6112.168

[GRAPHIC] [TIFF OMITTED] T6112.169

[GRAPHIC] [TIFF OMITTED] T6112.170

[GRAPHIC] [TIFF OMITTED] T6112.171

[GRAPHIC] [TIFF OMITTED] T6112.172

[GRAPHIC] [TIFF OMITTED] T6112.173

[GRAPHIC] [TIFF OMITTED] T6112.174

[GRAPHIC] [TIFF OMITTED] T6112.175

[GRAPHIC] [TIFF OMITTED] T6112.176

[GRAPHIC] [TIFF OMITTED] T6112.177

                                 <all>

</pre></body></html>
